<html>
<title> - HONORING ``EQUAL PAY DAY'': EXAMINING THE LONG-TERM ECONOMIC IMPACTS OF GENDER INEQUALITY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





 
                      HONORING ``EQUAL PAY DAY'':

                    EXAMINING THE LONG-TERM ECONOMIC

                      IMPACTS OF GENDER INEQUALITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2021

                               __________

                           Serial No. 117-11

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                             
                             
                             
                               ______                       


               U.S. GOVERNMENT PUBLISHING OFFICE 
 43-961 PDF             WASHINGTON : 2021 
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
            Krista Boyd, Chief Oversight and Policy Counsel
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2021...................................     1

                               Witnesses


Megan Rapinoe, U.S. Women's National Team and Equal Pay Advocate
    Oral Statement...............................................     6

Ai-jen Poo, Executive Director, National Domestic Workers 
  Alliance
    Oral Statement...............................................     6

Khara Jabola-Carolus, Executive Director, Hawaii State Commission 
  on the Status of Women
    Oral Statement...............................................     8

Patrice Onwuka, Director, Center of Economic Opportunity
    Oral Statement...............................................     9

Dr. C. Nicole Mason, President and Chief Executive Officer, 
  Institute for Women's Policy Research
    Oral Statement...............................................    11

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              


  * Report, ``It's Time to Care'' by the TIME'S UP Foundation; 
  submitted by Chairwoman Maloney.

  * Letter, from the National Partnership for Women and Families; 
  submitted by Chairwoman Maloney.

  * Statement, by Professor Julie Suk; submitted by Chairwoman 
  Maloney.

  * Report, IWPR by Dr. C. Nicole Mason; submitted by Chairwoman 
  Maloney.

  * Study, Goldman Sachs Black Womenomics Study; submitted by 
  Rep. Tlaib.

Documents entered into the record during this hearing are 
  available at: docs.house.gov.


                      HONORING ``EQUAL PAY DAY'':

                        EXAMINING THE LONG-TERM

                 ECONOMIC IMPACTS OF GENDER INEQUALITY

                              ----------                              


                       Wednesday, March 24, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Raskin, Khanna, Ocasio-Cortez, Tlaib, Porter, 
Davis, Wasserman Schultz, Welch, Johnson, Sarbanes, Speier, 
Kelly, Lawrence, DeSaulnier, Gomez, Comer, Jordan, Grothman, 
Cloud, Gibbs, Sessions, Keller, Biggs, Mace, Franklin, Fallon, 
Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    Today is Equal Pay Day, but it is not a celebration. Today 
marks the extra days and weeks it takes American women to earn 
the same pay that their male counterparts made in the previous 
year. Three extra months of work just to earn the same amount.
    In 1963, when the Equal Pay Act was signed, women made 
$0.59 for every dollar earned by men. We have gotten a raise. 
We've made some progress since then, but not nearly enough, and 
it's unfair.
    Today in 2021, on average, women are still paid only $0.82 
for every dollar paid to a man. The gender pay gap is even 
worse for many women of color. For every dollar paid to White 
men, Asian-American women overall are paid $0.87 to the dollar, 
Black women are paid $0.63, Native American women are paid 
$0.60, and Latina women are paid just $0.55.
    Today marks all women's Equal Pay Day, reflecting the 
average across races and ethnicities. Asian American and 
Pacific Islander women's Equal Pay Day is March 9. Black 
women's Equal Pay Day isn't until August 3. Native American 
women's Equal Pay Day isn't until September 8, and Latino 
women's Equal Pay Day isn't until October 21.
    This is a disgrace, and it has long-term consequences for 
women and families. The pay gap even reaches professional 
female athletes who are paid significantly less than their male 
counterparts, even when they perform the same or much, much 
better. The U.S. women's national soccer team is incredibly 
successful, winning far more games than the men's team, 
including both the 2015-and 2019-Women's World Cup. But U.S. 
Soccer pays members of the women's national team as little as 
$0.38 on the dollar compared to the men's national team.
    I am grateful today that we will hear from world champion 
soccer player and equal pay advocate, Megan Rapinoe, about why 
we need to close the gender gap, not just for professional 
athletes, but for everyone.
    Routinely earning less than we deserve impacts us for life. 
As vice chair of the Joint Economic Committee, I released a 
report in 2016 showing that lower wages over a lifetime result 
in reduced Social Security and pension benefits and make it 
harder for women to save for retirement. Other research 
suggests that women also experienced disparity in access to 
resources of incomes outside of salary and wages, such as 
employment benefits that contribute to financial security and 
prosperity during a career.
    On average, women earn approximately $900,000 less than men 
over their lifetime. We also know that economic insecurity 
makes women more vulnerable to other devastating circumstances, 
like workplace sexual harassment, domestic violence, and abuse. 
Women working in low-wage jobs have even fewer workplace 
protections, making them and their families even more 
vulnerable.
    The economic harm caused by longstanding gender 
inequalities has only been exasperated-caused a greater problem 
because of the coronavirus pandemic. Women comprise a majority 
of healthcare and other social service workers and 
disproportionately shoulder the burden of the coronavirus 
pandemic. Women without access to paid leave have been forced 
to decide whether to forego income, to step back from their 
professions in order to care for themselves or their loved 
ones.
    Today, we'll talk about reforms that promote an equitable 
and inclusive economic recovery for women across the U.S., so 
with our response to this crisis we cannot only recover but 
build a more equal future.
    I am pleased that the Education and Labor Committee is 
marking up the Paycheck Fairness Act and other critical reforms 
today. One of the most basic protections women are lacking in 
our country is constitutional equality. I have advocated for 
the equal rights amendment for over 25 years. The ERA would 
establish freedom from discrimination on the basis of sex as a 
constitutional right. There is no other way to enforce equal 
pay for equal work in the courts unless we have the ERA, and it 
is one of many permanent fundamental fixes we need to stem the 
tide of gender inequality in our country.
    For millions of Americans, these issues are of vital 
importance. Ensuring an equitable recovery from the corona 
pandemic requires facing the reality of gender inequality head 
on. Our coronavirus recovery plans must set the stage for bold, 
transformative policy decisions that will bring us into a more 
equal future. We cannot achieve recovery without equality.
    I now recognize the distinguished ranking member, Mr. 
Comer, for an opening statement.
    Mr. Comer. Well, thank you, Chairwoman Maloney, for holding 
this hearing. And I want to welcome our distinguished guests to 
the committee hearing today.
    I would also like to set the tone for this hearing by 
saying two people who have the same education and perform the 
same job should receive the same compensation, regardless of 
race, gender, or any other irrelevant characteristic. I think 
we all agree on that. And as we discuss this important topic, I 
think it's important to note how the pandemic has devastated 
women in the work force.
    Overall, since the start of the pandemic, women have lost 
nearly 1 million more jobs than men, and account for 55 percent 
of overall net job loss. Not only are women more likely to be 
in the jobs that were lost when the country shut down, but the 
responsibility of supervising children in the remote schooling 
has fallen most heavily on mothers. Recent data shows that 
nearly one in four women are considering downshifting their 
careers or leaving the work force altogether to care to their 
children. Yet the data shows that community spread is not tied 
to school spread and we know kids are safer in school. Many 
teachers have been vaccinated, so it's now time to prioritize 
our kids. We must open schools for full in-person instruction 
and reopen the economy to get women back in the work force.
    With that, I yield the remainder of my time to 
Congresswoman Mace, a pioneer for women in the work force and 
the first woman to graduate from the Citadel, the military 
college in Charleston, South Carolina. I yield to Ms. Mace.
    Ms. Mace. Thank you, Ranking Member Comer. Appreciate you 
yielding your time. And I want to thank Chairwoman Maloney for 
convening this meeting today.
    As someone who has broken glass ceilings and barriers all 
her life, like many of the women on here today and watching, I 
want to say thank you, but I also don't want to have a message 
of doom and gloom. I want to have a message of hope for every 
woman who's out there working or in the home. Today should also 
be a celebration for women. And when we talk about equality and 
equal rights, our constitutional rights to equality are covered 
and protected under the 14th Amendment, because if it's not, 
then that means I have no protections today. And I believe, as 
a hard-working single mom and American, that my rights are 
protected under their Constitution today and I am not denied 
those rights.
    I want to start off by echoing the ranking member's 
statement. Two people who have the same education and perform 
the same job should receive the same pay, regardless of their 
gender, their race, their sexual orientation, or any relevant 
characteristics. But I think it's also important to, when we're 
talking about this issue, to acknowledge the raw numbers. You 
know, it's not just the number that's been cited, but there are 
other factors. We're going to hear those numbers from members 
from the other side of the aisle probably all day today, and 
they will no doubt be used during the duration of the hearing, 
but they don't give an accurate entire picture. And I think 
it's important when we're talking about data that we look at 
the entire picture.
    So, the raw wage gap number is not a measure of equal pay 
for equal work; it's a comparison of averages. The often-cited 
statistic we heard just now about $0.80 per dollar men earn 
does not actually compare women and men in the same profession 
who work the same hours with the same qualifications or 
experience.
    So, when we have this, I believe, very important 
conversation in support of that today, I want to start with the 
data in context. So, one suggested for factors such as hours 
worked and compensation packages, family and marital status, 
the gender wage gap, I believe, is significantly smaller than 
what we're talking about today. And in most cases, when you 
look at the data, you look at context, we're talking context. 
We're talking about between 2 and 10 percent. So, I'm not 
saying there's no gender wage gap, I'm not saying its 
statistically unlikely women earn less than men; I'm just 
saying that it's not because of widespread discrimination.
    There's always been discrimination, and we may never be 
able to resolve it 100 percent at all. I've been in a male-
dominated industry my entire life, and I've seen that 
discrimination in every industry that I've been in. But thanks 
to existing legislation that we have, 1963, the Equal Pay Act, 
and in 1964, the Civil Rights Act, wage discrimination is 
illegal and should be adjudicated and can be adjudicated and 
held accountable. Bad actors can be in the civil justice 
system.
    In order to get a clearer picture, I want to briefly look 
at the data and start with hours worked. In 2019, the 
Department of Labor's time use survey found the average full-
time working man spends 8.32 hours a day on the job, compared 
to 7.73 hours for the full-time working woman. So, let's be 
clear. This is not a reflection of effort; it's women on 
average spend more time doing other unpaid work.
    There's been a survey that was done in 2019 that 22 percent 
of men say they do household work compared to almost half of 
women. So, don't get me started on that conversation either, 
but there are big differences, statistically significant 
differences. But hours worked isn't the only factor to consider 
here. The data show that women, in general, they're willing to 
trade higher pay for more flexibility, whereas the data shows 
that men are willing to trade flexibility for higher pay.
    And you know, children also play a role in all of this. So, 
these are important factors when we're having this 
conversation. And not too long ago, we, as women, we didn't 
have the ability to make decisions about our professional 
careers, our personal lives, where we went to school. All of 
these have been achievements and successes that we've had, and 
I want us to celebrate those.
    As the Ranking Member Comer said earlier, prior to the 
pandemic, women were joining the work force at a faster pace 
than men. Women outnumbered men in earning college degrees, but 
in the last year, we've seen, because of schools closures, that 
we've had over 3 million women leave the workplace. And this 
has been devastating to the progress we've made to women going 
into work and having careers. I cannot express how devastating. 
We've set ourselves back decades because of COVID-19 and school 
closures. But we must continue to work for equal opportunity 
and individual flexibility rather than simply equal pay. There 
are other factors. These two are not mutually exclusive.
    And I want to thank the ranking member for yielding his 
time.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    I'll now introduce our witnesses.
    Without objection, I now recognize my good friend and 
colleague, Congresswoman Pramila Jayapal, to introduce our 
first witness who is a constituent of Representative Jayapal's. 
And thank you for helping us get this witness.
    Ms. Jayapal. Thank you so much, Chairwoman Maloney, and for 
your tremendous leadership on so many issues.
    I'm delighted to be here to introduce a pride of Seattle 
and, indeed, our country, Megan Rapinoe. Ms. Rapinoe is helping 
to redefine the role of leadership in professional sports. She 
is a soccer superstar and a fierce activist. We all remember 
that remarkable moment when the crowd began chanting ``equal 
pay'' instead of ``USA'' after Ms. Rapinoe and her teammates on 
the U.S. Women's National Team won their second consecutive 
world cup championship in 2019.
    Ms. Rapinoe is one of the most accomplished soccer players 
in the world. She is an Olympic gold medalist and she's won two 
world cup championships. She uses every opportunity to advocate 
for causes she cares deeply about, from social and racial 
justice and LGBTQ rights to equal pay. Ms. Rapinoe is dedicated 
to fighting for the rights of all athletes to work in a country 
and a world where economic, racial, and gender justice yields 
equal pay, dignity, and respect.
    Megan, we are so very proud, not only of your remarkable 
talents and achievements, but for your willingness to use your 
platform to fight for equality for all of us. Thank you for all 
you do, and I look forward to hearing your testimony today.
    Chairwoman Maloney. Thank you. After Ms. Rapinoe, we will 
hear from Ai-jen Poo, who's the executive director of the 
National Domestic Workers Alliance.
    Next, we will hear from Khara Jabola-Carolus, who is the 
executive director of the Hawaii State Commission on the Status 
of Women. She is also testifying from Hawaii where it is a 
little after 3:30 a.m. in the morning, so we thank her for her 
sacrifice.
    Next, we will hear from Patrice Onwuka, who is the director 
of the Center for Economic Opportunity.
    Last but not least, we will hear from Dr. C. Nicole Mason, 
who is the president and CEO of the Institute for Women's 
Policy Research.
    I'd like to note that Ms. Rapinoe has a conflict this 
morning and, therefore, has a very hard stop at 10:45, but we 
will try to get through as many questions as we can with Ms. 
Rapinoe before she has to go.
    The witnesses will be unmuted so we can swear them in. Now, 
please, please raise your right hands.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses answered in the 
affirmative.
    Thank you.
    Without objection, your written statements will be made 
part of the record.
    With that, Ms. Rapinoe, you are now recognized for your 
testimony.

  STATEMENT OF MEGAN RAPINOE, U.S. WOMEN'S NATIONAL TEAM AND 
                       EQUAL PAY ADVOCATE

    Ms. Rapinoe. Thank you, Chairwoman Maloney, and thank you, 
Representative Jayapal from the great state of Washington, for 
such a warm welcome. And thank you, everyone, for having me 
here today. It is an honor to be here in front of you.
    It's probably no surprise, but equal pay and equality, in 
general, is a deep and personal passion of mine. And what we've 
learned and what we continue to learn is that there's no level 
of status and there's no accomplishment or power that will 
protect you from the clutches of inequality. One cannot simply 
outperform inequality or be excellent enough to escape 
discrimination of any kind.
    And I'm here today because I know firsthand that this is 
true. We're so often told in this country that if you just work 
hard and continue to achieve, you will be rewarded and rewarded 
fairly. It's the promise of the American Dream, but that 
promise has not been for everyone.
    The United States Women's National Team has won four world 
cup championships. We've won four Olympic gold medals on behalf 
of this great country. We've filled stadiums, we've broken 
viewing records, we've sold out our jerseys, all the popular 
metrics by which we are judged, and yet, despite all of this, 
we're still paid less than our male counterparts.
    For each trophy, of which there are many, for each win, for 
each tie, for each time we play, less. In fact, instead of 
lobbying with the Women's Team in our efforts for equal pay and 
equality in general, the U.S. Soccer Federation has continually 
lobbied against our efforts and the efforts of millions of 
people marginalized by gender in the United States. And if it 
can happen to us and it can happen to me with the brightest 
light shining on us at all times, it can, and it does happen to 
every person who is marginalized by gender.
    But we don't have to wait. We don't have to continue to be 
patient for decades on end. We can change that today. We can 
change that right now. We just have to want to.
    So, as always, LFG. Thank you.
    Chairwoman Maloney. Thank you.
    Ms. Poo, you are now recognized for your testimony.

STATEMENT OF AI-JEN POO, EXECUTIVE DIRECTOR, NATIONAL DOMESTIC 
                        WORKERS ALLIANCE

    Ms. Poo. Chairwoman Maloney, Ranking Member Comer, and the 
members of the committee, thank you for holding this hearing 
and for the opportunity to testify on behalf of the National 
Domestic Workers Alliance and Caring Across Generations. Also, 
happy Women's History Month, and thank you for the passage of 
the American Rescue Plan.
    Because of your leadership, women who are struggling to 
survive have a real chance for recovery. Equal Pay Day was 
created to shine a light on gender pay and equity. Women earn 
$0.82 for every dollar earned by White men for the same work. 
For women of color, those numbers drop even lower: $0.63 for 
Black women, $0.60 for native women, and $0.55 for Latinas. 
Asian and Pacific Islander women are paid $0.85 for every 
dollar, and within this group there are more disparities. 
Vietnamese women earn $0.67 cents, Hmong women earn $0.61, and 
Burmese women earn only $0.52.
    For domestic workers, equal pay is not only about equal pay 
for equal work; it is also about equal valuing of the work that 
women do in the economy at large. Caregiving and cleaning work 
is work that has always been assigned to women and taken for 
granted that women will do. As a profession, it has been 
associated with Black women, women of color, and immigrant 
women. Domestic workers are 92 percent women and more than half 
women of color.
    This work epitomizes essential work. It enables millions to 
participate in the work force knowing their homes and families 
are safe. Despite what domestic workers make possible for all 
of us, it's shockingly undervalued. The average annual income 
of a home care worker is approximately $17,000 per year, and 82 
percent of domestic workers don't have a single paid sick day.
    The pandemic has deepened inequity for women who are 
already struggling. In March 2020, over 52 percent of domestic 
workers surveyed had no work. A week later, that number 
increased to 68 percent. On a call with our members, one woman 
held up her phone to the camera to show us that she literally 
had one cent left in her bank account. Like millions of 
domestic workers, she was faced with the impossible choice of 
keeping herself and her family safe and putting food on the 
table.
    Susie Rivera, home care worker in Texas for over 40 years, 
has continued working as an essential worker throughout the 
pandemic, without paid sick days, paying out of pocket for her 
own PPE and safe transportation to reach her clients, and to 
support her family, earning a wage of $11 per hour.
    But the care crisis for women is bigger than domestic work. 
According to the National Women's Law Center, women's overall 
participation in the work force has dropped by 57 percent, the 
lowest level since 1988. Nearly 3 million women have left the 
work force since the pandemic began and a leading driver is the 
increase in caregiving responsibilities in the home and the 
inability to find affordable and reliable family care.
    As our childcare centers and schools closed, our nursing 
homes became vectors, and all of us socially distanced, we 
realized that we had no foundation or infrastructure to support 
our ability to care for our families but for the invisible care 
work that women did and could no longer do in the same way. 
Especially for women essential workers in minimum wage jobs, 
from restaurant workers to grocery workers, too many women 
simply do not earn enough to make ends meet or to make care 
work.
    From the boardroom to the classroom, gender inequity in the 
workplace fundamentally rests on how we value or fail to value 
caregiving and care workers.
    This Congress has a profound moment of opportunity to 
rebuild and reset our economy, to be more fundamentally 
equitable. The only way to achieve fair pay for care workers is 
for Members of Congress to decide it's a priority.
    As we look toward economic recovery, we must pass the 
Domestic Workers Bill of Rights, legislation sponsored by 
Congresswoman Jayapal, and we must invest in caregiving the way 
we invest in infrastructure, the care work force and childcare, 
paid leave, home and community-based services that will enable 
women and everyone else to have the ability to return to work.
    Thank you.
    Chairwoman Maloney. Thank you so much.
    Ms. Jabola-Carolus, you are now recognized for your 
testimony.

 STATEMENT OF KHARA JABOLA-CAROLUS, EXECUTIVE DIRECTOR, HAWAII 
            STATE COMMISSION ON THE STATUS OF WOMEN

    Ms. Jabola-Carolus. Aloha, Chair, Ranking Member, and 
honorable members. My name is Khara Jabola-Carolus and I direct 
the Hawaii State Commission on the Status of Women, which 
became the first government agency in the world to propose a 
feminist economic recovery from COVID-19 last year.
    You've heard about the disproportionate job losses, the 
shadow pandemic of violence, and the care crisis. I'm here to 
talk about what Hawaii is doing about it, in the hope that our 
example can assist you to better integrate the knowledge 
developed by Native Hawaiian, Pacific Islander, Asian, and 
Black women.
    Hawaii is still indigenous. America is still indigenous. 
Our feminist economic recovery plan was guided by indigenous 
knowledge and conceived in deep consultation with our 
community. It has different origin stories depending on each 
person who you talk to who procreated it, but for me, I 
pinpoint almost two years ago exactly.
    I was just about to finish up a long day when a wave of 
pain started building up in me and immediately, I started to 
cry. I started to cry, not because I knew that my baby was 
coming, but because I also knew that I had a work assignment 
due that would not be forgiven if missed. I know the women in 
this hearing know what I'm talking about.
    Technically, nobody is going to give you flak for using 
childbirth as an excuse, but I knew that I would be less 
respected. I knew that I would be penalized one way or another 
for dropping the ball in our girl boss Game of Thrones work 
culture. So, I chose work. I chose to not be in that moment. I 
did not choose my family, my baby, or myself. I took a deep 
breath, and I bent over in front of my laptop and I typed, 
screamed, and labored until literally the sun came up. Most 
moms in America can recite to you the rest of the story. I went 
back to work when my baby and I were both in diapers because I 
couldn't afford extended leave without pay. This is an 
unremarkable story of American motherhood.
    This is also a story about the gender pay gap. It was only 
after the dust had settled that I started to allow myself to 
imagine what a world would be like if--what that day and that 
year would have been like in a world that was not built around 
fake growth, productivity, profit, and gain. Whatever your 
feelings about feminism, everyone can agree that this system is 
breaking our hearts, and women deserve a profound reordering of 
values.
    Women face acute challenges where I live underneath the 
glossy marketed image of Hawaii as one of America's toughest 
economies to survive. This was the backdrop of our feminist 
plan, and here are some of our key proposals that I'd like to 
share.
    First, we'd like to move beyond the GDP and utilize new 
measures of wealth that are not inherently sexist. We also want 
to end the gender segregation of the economy. We want to 
establish gender justice, and specifically women's liberation, 
as a core function of government. Integrate a feminist lens 
through our policymaking.
    Require publicly available disaggregated data so we can 
determine how women are accurately faring.
    We want to transition from dependency on over tourism, 
armed conflict, and land speculation and invest in land 
stewardship and local food systems.
    We also want to give land, housing, and a 20 percent pro 
rata share of COVID funds to Native Hawaiians first. 
Landlessness greatly affects women and land acknowledgements 
cannot house Native Hawaiians.
    We want to prevent gender violence and implement the Bodies 
Back Model for noncarceral abolition of harmful industries that 
sell the dehumanization and hyper sexualization of Native 
Hawaiians, Asian, Pacific Islander, Black, and LGBTQ people.
    We also want to prioritize high-risk groups, such as 
transgender people, by setting hiring goals in the public 
sector.
    I'll stop there. The list goes on, but the takeaway is 
singular. Women don't want equal pay if it means we have to 
keep serving men in society through gendered labor. Our vision 
is much bigger than that. We want freedom from hierarchy and 
servitude that only a new economy can provide.
    Accordingly, we ask for your support in this grand project 
we are undertaking in Hawaii, and we mahalo you for this 
opportunity to testify.
    [Speaking native language.]
    Chairwoman Maloney. Thank you.
    Ms. Onwuka, you are now recognized for five minutes.

  STATEMENT OF PATRICE ONWUKA, DIRECTOR, CENTER FOR ECONOMIC 
             OPPORTUNITY, INDEPENDENT WOMEN'S FORUM

    Ms. Onwuka. Thank you, Chairwoman Maloney, Ranking Member 
Comer, and distinguished members of this committee. Thank you 
for having me today. My name is Patrice Onwuka and I'm the 
director of the Center for Economic Opportunity at the 
Independent Women's Forum.
    IWF is the leading women's organization dedicated to 
developing and advancing policies that enhance peoples' 
freedom, opportunities, and well-being. My work focuses 
specifically on expanding opportunities for women. So, it's an 
honor to be here today to talk with you about how we can ensure 
women are treated fairly in the workplace.
    And as has been mentioned before, women made tremendous 
gains in the work force before the pandemic hit. Unfortunately, 
we've heard about the fallout from the pandemic and other 
measures nationwide that are making it harder for women to 
pursue their dreams today.
    Now some point to gender discrimination as the factor 
holding women back. The pay gap is held up as evidence of 
widespread gender discrimination in the labor force. It should 
not be.
    Fact No. 1, the pay gap is largely due to the choice's 
women make. Now, more choices in their careers is actually a 
positive sign of progress for women. Let's look at the Bureau 
of State Labor Statistics. As we know, and as we heard from 
Congresswoman Mace earlier today, women on average earn about 
82 percent of what men earn, but there is a massive asterisk 
attached to that. This is uncontrolled. The raw data point 
does, No. 1, not compare two people in the same job and, No. 2, 
control for so many factors that influence pay. You've heard 
about some of those factors, and I'm going to dive into a few 
more today. But as we know, when you control for those factors, 
the pay gap shrinks to two cents on the dollar at best.
    When we look at wage analysis by private employers like 
Glassdoor--employment experts like Glassdoor and payscale.com, 
they both find similar two-cent to even five-cent pay gaps. So, 
this tells us that, yes, the pay gap is very much driven by 
those choices.
    Now, we've heard that women work fewer hours than men. They 
also work more part time than men. Women and men sort 
differently in the work force--men into higher paying 
occupations and women into traditionally lower paying 
occupations. Even within occupations, men and women will choose 
different career tracks for different reasons. When we look at 
Hispanic women, Black women, they are overrepresented in-
service jobs and lower paying occupations. Meanwhile, they're 
underrepresented in those higher paying positions. So, it's not 
surprising that we see an even larger wage gap, uncontrolled 
wage gap, for minority women.
    Looking at majors that women choose, women tend to consider 
nonfinancial considerations, like the enjoyment of the future 
job, personal fulfillment, whereas, men, young men in college, 
are thinking about their salaries, their earnings potential. 
And very interesting, not often heard, fewer women work in the 
most dangerous jobs. So----
    And I think finally the big one, is obviously around 
family, family planning. And so, men and women choose different 
roles in the family that affects the decisions they make about 
the time they spend, their occupations, their career tracks. I 
would love to get into more of these individual factors, 
hopefully during the Q&A, and I've submitted my written 
testimony that dives into that as well.
    Now, fact No. 2, pay discrimination is illegal. Equal pay 
for equal work has been the law of the United States for nearly 
six decades. The Equal Pay Act of 1963, the Civil Rights Act of 
1964, they explicitly prohibit sex-based wage discrimination. 
And, yes, there may be instances of sex discrimination and, 
thankfully, American women have opportunities and means for 
redress.
    Now, Congress has introduced new measures that are supposed 
to protect women from sex discrimination, and we already know 
that it's illegal. Unfortunately, these ideas can 
unintentionally hamper women's progress and work opportunities, 
particularly flexible work opportunities. Today's woman is 
increasingly able to carve out the kind of work life she 
desires because our economy is innovating new paradigms of 
employment.
    I'm a mother, I'm a Black woman, I'm an immigrant, and a 
proud naturalized citizen of America. And it's because of 
flexible opportunities that I am able to do what I do every 
day. But one-size-fits-all government policies that may be 
well-intentioned would rob women of the ability to choose for 
themselves the best work arrangements that fit their 
individual, unique circumstances.
    So, I leave you with a quote from a report on the wage gap 
prepared for the Department of Labor under the Obama 
Administration. This study leads to the unambiguous conclusion 
that the differences in the compensation of men and women are 
the result of a multitude of factors and that the raw wage gap 
should not be used as the basis to justify corrective action. 
Indeed, there may be nothing to correct. The difference in the 
raw wages may be entirely the result of individual choices 
being made by both men and women.
    Thank you for the opportunity to speak today.
    Chairwoman Maloney. Thank you.
    And, Dr. Mason, you are now recognized for your testimony. 
Dr. Mason.

  STATEMENT OF C. NICOLE MASON, PRESIDENT AND CHIEF EXECUTIVE 
         OFFICER, INSTITUTE FOR WOMEN'S POLICY RESEARCH

    Ms. Mason. Good morning. My name is C. Nicole Mason. I'm 
the president of the Institute for Women's Policy, a think tank 
focused on winning economic equity for all women and building 
women's power and influence in society. I thank you all for the 
invitation to testify today and ask that my written testimony 
and IWPR's report, Building the Future: Bold Policies for a 
Gender Equitable Recovery, be submitted for the record.
    My first job at the age of 12 was selling newspapers door 
to door in my neighborhood. By 16, I was working in a food 
court. In college I worked as a waitress, and by 20, I had 
landed my first professional job at a local nonprofit 
organization. I have participated in the work force and earned 
a steady paycheck for nearly my entire life. I worked out of 
necessity and for survival, which is true for many women in the 
work force.
    Today, I'm a single mother by choice and the primary 
breadwinner in my family. I will have to work harder and longer 
to achieve the same markers of financial success--home 
ownership, savings, and wealth--as most men.
    Across the board, women earn less than men in nearly every 
occupation for which there is available data. The inverse is 
not true. When women enter male-dominated sectors, they do not 
out-earn men. If we do nothing, women will not reach economic 
parity with men until 2059. For women of color, it will take 
more than a century; 2130 for Black women and 2224 for Hispanic 
women.
    This means women will have to work longer or hold multiple 
jobs to make ends meet and care for their families. It also 
means that if we do nothing, my daughter and my daughter's 
daughter will not see pay equity in their lifetimes.
    Pay equity and loss earnings due to the wage gap have dire 
consequences for women. It is estimated that women will lose 
approximately $1 million over their careers due to the gender 
wage gap. For women of color, the loss is significantly higher.
    During economic downturns and recessions, such as the one 
we find ourselves in now, lost earnings to the pay gap make 
women economically vulnerable and cause additional financial 
hardship because they have fewer savings to cover emergencies 
or basic expenses when there's an unexpected loss of income or 
employment.
    Raising the wages of women to match those of comparable men 
would have a dramatic impact on their families. The poverty 
rate for all working women would be cut in half, falling from 8 
percent to 3.8 percent. The very high poverty rate for working 
single mothers would fall by nearly half, from 28.9 percent to 
14.4 percent.
    In a recent poll conducted by IWPR, more than half of the 
women reported in this moment not having enough money to make 
ends meet or to pay their bills. More than 11 million women are 
people across the country are behind on rent and cannot afford 
food. A quarter of women have less than a thousand dollars in 
their bank account and about 15 percent have less than $400. 
This is the impact of the gender pay gap and the concentration 
of women in lower wage occupations.
    The gender wage gap is real. It is not a hoax or the result 
of women's individual choices. We cannot explain it away. It is 
the result of a systemic undervaluing of women's contributions, 
skills, and talents to the work force and society. We can and 
should do better. This is a moment of public reckoning and 
revelation that would not have been possible a year ago. I hope 
that we can use it to propel us to reimagine a society, 
including workplaces and homes, that is more supportive of all 
working women and their families, including pay equity.
    Chairwoman Maloney. Thank you so much and thank you to all 
of the members of the panel today and to my colleagues and the 
committee members.
    Before I recognize myself, I want to note that I am usually 
fairly light on the gavel, but because we have a witness with a 
hard stop in today's hearing, I will be a little more strict.
    Ms. Rapinoe, we appreciate your testimony. You and the 
entire U.S. Women's National Team have inspired so many, not 
only with your many wins, but with your demands for equal pay. 
The U.S. Women's National Team has definitively outperformed 
the men's team. The team has won four Olympic gold medals, four 
world cups, including one after you filed your initial 
complaint five years ago. Our entire country is so proud of 
you.
    But players on the Women's National Team are still paid 
less than players on the men's team, some as little as $0.38 on 
the dollar. Why did you and your teammates feel it was so 
important to pursue this equality case?
    Ms. Rapinoe. Thank you for the question. I think for us, 
first of all, it's just the right thing to do. You know, we've 
been in this equal pay fight long before our current lawsuit 
was filed. We tried to go through the EEOC route. You know, we 
tried to negotiate, and time and time again, we were told just 
simply no. The only thing that was going to be available was 
less and far less, to be honest.
    So, this was the next best step that we could take, 
frankly. You know, I don't think anyone wants to go into a 
litigation willingly. It's not a fun thing, but we felt like, 
for our team and for the future of the sport, this is what we 
had to do. And I think throughout the process, we've realized 
that, yes, we're fighting for ourselves and, yes, you know, we 
have our outstanding lawsuit with the U.S. Federation, but 
we're with everyone. We're with so many women across the 
country. We are with so many women who aren't able to be in 
this committee hearing, who aren't able to get the ear of the 
media, who do not have the bright lights and the cameras on 
them all the time. We are looking to carry this torch for so 
many other women.
    Chairwoman Maloney. Thank you. What do you think it means 
when professional female athletes at the top of their game and 
they are significantly outperforming their male colleagues are 
still not paid as much as their male equivalents?
    Ms. Rapinoe. Well, I'm not here for it, frankly. We put in 
just as much work. We train just as hard. You know, we compete 
to bring trophies back to the United States, bring gold medals 
back to the United States. We do our jobs and do it in the best 
way that we possibly can. And for all of us who work so hard 
and see, you know, how hard the men's team work and see how 
hard our team's work and know that that's equal it's just 
unacceptable that we're still fighting for equal pay.
    And I feel like, honestly, we've done everything. You want 
stadiums filled, we filled them. You want role models for your 
kids, for your boys and your girls and your little trans kids, 
we have that. You want us to be respectful, you want us to 
perform on the world stage, you want us to take the stars and 
stripes and the red, white, and blue across the entire globe 
and represent America in the best way possible, we've done all 
of that. And simply, there's no reason why we're underpaid for 
the exception of gender.
    Chairwoman Maloney. I'm sure you've seen the stories about 
the appalling disparities between the women's and men's 
training facilities at the NCAA basketball tournament. I'd like 
to throw up a picture of this on the screen.
    Now the NCAA has taken steps to fix the problem, but only 
after a public outcry and negative press attention. The fact 
that these disparities existed in the first place, I believe, 
is insulting and inexcusable.
    What kind of message do you think this unequal treatment 
sends to these college athletes, Ms. Rapinoe?
    Ms. Rapinoe. Well, first of all, for an organization like 
the NCAA, similar to U.S. Soccer Federation that's a nonprofit, 
it's just absolutely unacceptable. You know, to say that you 
value your student athletes and to say that, you know, this is 
the most important time of the year, we all know March Madness 
is very exciting. Probably everyone's brackets are blown up at 
this point with a few upsets, but, you know, to have your 
women's players or people who play on women's team show up for 
one rack of dumbbells is just completely unacceptable. Someone 
at some point thought to themselves that was OK. And you even 
saw, you know, they had a GoPro set up to film the whole men's 
gym being set up, you know. And for Mark Emmert and the 
executives at the NCAA, you just simply have to do better.
    And I'll say, I mean, even the new weight room that the 
women's team has is still unacceptable. It's not to the 
standard needed to perform at that level and it's certainly not 
to the standard of equal that the men have.
    Chairwoman Maloney. [Inaudible] testimony. You have 
elevated the issue of equal pay for men and women and are 
helping us to achieve closing that gap.
    Dr. Mason, what conditions throughout a woman's career lead 
to such a shocking disparity in retirement? You have written 
about it. I did a report on it as vice chair of the Joint 
Economic Committee that so many more women are in poverty 
because of unfair treatment in their pay.
    Very briefly, Ms. Mason.
    Ms. Mason. Thank you so much. So, when I think about, you 
know, women's careers and what happens to them once they enter 
the work force, from the very beginning, women are at a 
distinct disadvantage, from negotiating equal pay for equal 
work, for in terms of, you know, lower wage workers not having 
benefits or paid sick leave or many other things we know that 
will make a difference, to a lack of affordable childcare, 
which, again, prohibits women from being able to enter the work 
force and work at their full capacity.
    These things are very--these things are historic and 
longstanding and really impact a woman's ability, you know, to 
thrive in her career, but also earn equal--to be paid equally 
and fairly.
    The idea that women make choices, you know, to step out of 
the work force, to off-ramp for children, or to--you know, 
don't want to work or value career satisfaction or flexibility 
over other things is simply not true. What we have to 
understand is that, although women are 50 percent of the work 
force, we have not accommodated women in any real way and made 
sure that once women enter their careers, are able to sustain 
them without fear of retaliation, discrimination, or sexual 
harassment. These are also very critical concerns.
    When women experience discrimination or sexual harassment 
on the job, they are more likely to exit, and some and many 
women do so in silent-in silence.
    So, in this moment, we do have an opportunity to examine, 
not only Federal and state level policies, but also examine 
workplace policies in the private sectors to make sure that 
they are fair, equitable, and provide women with the utmost 
opportunity to, you know, do their work and careers without 
fear or harm.
    Chairwoman Maloney. Thank you.
    I now recognize our next speaker, Congresswoman Nancy Mace. 
Congresswoman Nancy Mace, you are now recognized.
    Ms. Mace. Thank you, Madam Chairwoman. Appreciate you again 
yielding to my time.
    I want to start with you, Ms. Rapinoe. First, I just want 
to say that we're super proud of U.S. women's soccer being on 
the world stage as you and your teammates have been for a 
number of years. It is exciting and, of course, we don't often 
see parity in women's sports with men's sports, and that could 
be, as you said, in terms of event attendance or popularity. 
You've made women sports very popular, and so that's something 
that every American should be proud of. And so, I appreciate 
you being with us today and speaking on this important issue. 
But I only have five minutes, and so if you could just give me 
quick yes-or-no answers, I'd appreciate it. I want to make sure 
I can get through all of my questions, and I have questions for 
two folks who've given testimony today.
    So, my first question is, does the U.S. Women's soccer team 
have union representation?
    Ms. Rapinoe. We do, yes.
    Ms. Mace. OK. And that union representation was present 
during the collective bargaining settlement back in 2017. Is 
that correct?
    Ms. Rapinoe. Yes.
    Ms. Mace. Great. And at the time the agreement was signed, 
you said, ``I think the Women's National Team Players 
Association should be very proud of this deal.'' Yet you and 
your teammates continue to pursue a Federal wage discrimination 
complaint. In the recent decision on the matter, the court 
found that U.S. Soccer Federation did not commit wage 
discrimination because it actually paid the women's team more 
than the men's team on both a cumulative and per game basis.
    In fact, the court found the women's team earned about 
220,000 per game, while the men's team earned approximately 
213,000 per game. Yet you and your teammates argue that because 
you all earn smaller bonuses for the world cup related matches 
and other tournaments than the men, there's a gender wage 
discrimination.
    Compensation is not simply wage, though. The 2017 agreement 
guaranteed pay for women regardless of whether they played or 
not. A perk the men's agreement does not have.
    Is it fair to say being paid regardless of whether you 
played was important to the women's team and to the agreement 
in 2017?
    Ms. Rapinoe. I think that's very much an oversimplification 
of the two contracts. I think, to be clear, the comments that I 
made then I thought us as players should be proud of the deal 
for what we were able to achieve, considering the 
discrimination that we were up against. We asked very clearly 
for the exact same contract and the same amount pot of money as 
the men received, and we were simply laughed out of the room, 
to be honest.
    So, I think it's much of an oversimplification what you're 
suggesting. And there's many disparities within the men's and 
the women's team, and that the overall pot of money is far 
larger--excuse me--the overall available pot of money or 
possibility of the pot of money is much larger for the men's 
team. We earned close to them because we're capturing nearly 
all of the pot of money available to us whereas the men's team 
is not.
    Ms. Mace. I have like two more minutes left. Your union 
that represented you all did such a bang-up job, they did so 
well you had to sue later because the deal was so bad, sounds 
like.
    Ms. Rapinoe. We had to sue later because of gender 
discrimination.
    Ms. Mace. The collective bargaining agreement expires this 
year. Do you anticipate being able to advocate for changes to 
better reflect your needs?
    Ms. Rapinoe. We're always advocating for better changes, of 
course. Obviously, we have an outstanding lawsuit which will 
affect the collective bargaining agreement, but, yes, we're 
very much looking for a more fair deal, something that we did 
not get last time.
    Ms. Mace. Thank you.
    And now I'd like to ask a few questions of Ms. Onwuka. I 
appreciate your comments earlier about how it is illegal that 
sex discrimination is illegal under Federal law and that one 
size does not fit all. As someone who's broken many barriers 
all her life, I do understand, you know, sometimes that as a 
woman you have to work twice as hard to be seen as an equal. 
So, I appreciate your comments earlier today.
    But, Ms. Onwuka, I want to ask whether you believe it's 
important for women to be able to negotiate their own work 
contracts?
    Ms. Onwuka. Thank you, Congresswoman. Absolutely. I think 
we've seen in some of these studies that women tend not to 
negotiate, particularly they're not trained at a younger age to 
understand both what they're able to ask for, but also what 
some of the choices that they make in terms of career tracks is 
going to--how it's going to impact their overall earnings. So, 
when they're going into the negotiation table, you know, being 
able to have that kind of information is really what empowers 
them. And so absolutely, women need to--to be empowering and to 
overcome wage gaps, I think we need to ensure women know what 
they want and can value their time and their efforts 
effectively.
    Ms. Mace. I agree. Women with the freedom to make their own 
choices, and the confidence and the courage to be able to ask 
for those choices too. Thank you.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back. The 
gentlewoman from the District of Colombia, Congresswoman Norton 
is now recognized. Congresswoman Norton.
    [Inaudible] Are you having difficulties Congresswoman 
Norton? Do you have technical difficulties? You are now 
recognized.
    Ms. Norton. This is Congresswoman Norton. Have I been 
recognized?
    Chairwoman Maloney. Yes, you are recognized.
    Ms. Norton. Madam Chair, you found a very useful way to 
recognize Women's History Month, and I appreciate that very 
much. It was my honor to enforce the 1964 Civil Rights Act long 
before I came to Congress, and please recall that gender was 
added only when a member of--a woman in Congress insisted that 
it be added.
    This week, of course, we know that despite the progress 
that's been made, women still make $0.82 for every dollar that 
a man earns. That's why this week I'm reintroducing my bill, 
the Fair Pay Act, that would require that if men and women are 
doing comparable work, they will be paid comparable wages. 
That's maybe the only way we can close this gap.
    Ms. Rapinoe, I'd like some indication of how the pay gap 
impacts you and your teammates. I mean----
    Ms. Rapinoe. There we go. The classic mute.
    You know, something that gets a lot of headline when we 
talk about equal pay is people's individual salaries or their 
individual compensation, and I think what's often missed is the 
investment in resources, whether that's on the business side, 
whether that's in TV and marketing, branding, ticket sales, 
whatever it may be.
    The Women's National Team in so many ways is a business. We 
have a product, we're on the field playing, and we sell around 
that product. So, the lack of investment--and you saw it. We 
brought it up before with the NCAA women's March Madness 
tournament. With a lack of proper investment, we don't really 
know the real potential of women's sports. What we know is how 
successful women's sports have been in the face of 
discrimination, in the face of gender disparity, in the face of 
a lack of investment on virtually every single level in 
comparison to men.
    So, for me, it goes much deeper than just what's hitting my 
bank account, which is a little bit light as always and we 
would love to fix that, but it's about investing resources into 
the team and into the business of the team so the next 
generation can actually fully realize their potential as a 
sport.
    Ms. Norton. Thank you. When employers ask about a woman's 
salary history before making an offer of employment, we now 
know that that entrenched the systemic pay gap. Another bill 
I'll be introducing this week is the Pay Equity for All Act. 
That would prohibit this practice and freeing women from the 
patterns of discrimination that can follow them throughout 
their careers.
    This question is for Dr. Mason, because I'm particularly 
interested in the research your organization has been doing, 
indicating that perhaps there is more to this story than just 
the size of the pay gap. For example, that report, which was 
published this month, shows that the wage gap actually shrank 
because pandemic job cuts forced low-income women out of the 
labor market.
    Can you explain this finding?
    Ms. Mason. So, I want to say something really very 
important. The pay gap has only closed by about $0.20 over four 
decades. So, it's moving at a really glacial pace. And as a 
result of the pandemic, you know, more than 5 million women 
have fallen out of the work force, many of them lower wage 
workers. And so what we need to understand about this work 
force is that, not only do they earn really low wages, but they 
also have very few benefits--job security, job flexibility, and 
all those things that we know makes a difference for working 
women.
    So, the reason why it shrunk--and I want to be very clear. 
When we talk about the shrinking of the pay gap because of the 
pandemic, we're talking about a fraction of a cent, or one 
penny, and that is because those--the women earning the lowest 
wages fell out of the work force. I want you to imagine for a 
moment, if those women made much more or earned the value of 
what they contribute to our society, we would accelerate the 
closing of the pay gap. That's what we need to be focusing on. 
How can we raise wages for the most vulnerable workers and pay 
women what they are worth and their value of their 
contributions to our society and the economy?
    Ms. Norton. Thank you very much.
    And I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Florida, Mr. Franklin, is recognized. 
Mr. Franklin.
    Mr. Franklin. Thank you, Madam Chairman. And thank you to 
our witnesses this morning for coming and testifying to us. 
These are very important topics that we're discussing, and I do 
appreciate your time.
    There's been a lot of focus politically on, not only equal 
pay for women, but also the equal rights amendment, violence 
against women, the treatment of women's veterans, gender 
equality, other topics, and I think these are all very healthy 
conversations to us to be having, so I'm glad you all are here.
    My question really is for Ms. Rapinoe, and I know she's on 
a timeline here, so I did want to get to her. Specifically, 
with your position with respect to women's professional 
sports--and, first, I've just got to say, I have tremendous 
respect for what you and the women's world cup team has 
accomplished. You've represented our country well, and it's 
amazing to see our women compete at that level and really 
making America proud for your accomplishments. So, thank you 
for that.
    I'm particularly interested, though, as the House passed 
the Gender Equality Act, the President now has issued executive 
order allowing transgender boys to compete in women's sport at 
the high school and college level, and now we're seeing states 
pushing back in various forms wanting to ban that. As a female 
professional athlete who has reached the absolute pinnacle of 
your profession, I would really be curious to hear your 
thoughts on how you see this developing and the potential 
impact that may have overtime for young women and their ability 
to reach the highest levels of those sports.
    Ms. Rapinoe. Thank you for your question. First, just off 
of the top, as a member of the LGBTQ community, I firmly stand 
with the trans family and that whole community. And as someone 
who has played sports with someone who is trans, I can assure 
you all is well. Nothing is spontaneously combusting.
    I think what we do know, though, is that people are 
continually marginalized by gender. We know that in equal pay, 
we know that in the workplace, we know that with LGBTQ. So, I 
think that we need to continue to fight for equality. We need 
to continue to protect people who have suffered from 
discrimination and inequality because of gender, and that 
really needs to be at the forefront. You know, I stand with my 
trans community, as we said, and with all marginalized people, 
especially people marginalized by gender.
    Mr. Franklin. Well, I appreciate that. And I'm certainly 
not trying to pit one group against another. I just--you know, 
as a father of daughters who played soccer, and I see how that 
process, you know, the works, and when you think, you know, 
soccer itself is the most popular sport in the world. There are 
millions of both boys and girls that grow up playing that 
sport. And as the competition winnows, as you reach higher 
levels, there are fewer and fewer opportunities. And certainly, 
at the levels you compete at, there are very few opportunities 
for women.
    Will it be fair, with such limited numbers of people 
available to play those sports, if women, biological women, are 
having to compete on the same field of play with biological 
males?
    And not to make it a sexual gender kind of issue. I'm not 
trying to pit one group against another. I'm talking pure 
fairness on the ability to actually do the job. Because, 
ultimately, that could have an impact on pay as well if women 
are denied opportunities for things that are completely beyond 
their control.
    Ms. Rapinoe. I mean, again, I think that's the reason that 
we want our kids to play sports is for all of the incredible 
aspects and character building and community building and self-
confidence building that happens in sports. And to completely 
cut out an entire section of people, I don't think is 
appropriate.
    Mr. Franklin. OK. But they would not be cut out because 
these same athletes are able to perform and play within sports 
by their biological designation. But does it seem to you to 
create an unfair advantage that biological males may be able to 
compete against biological females?
    Ms. Rapinoe. I mean, I think for me, it would be unfair to 
continue to marginalize anyone by gender.
    Mr. Franklin. OK. I see we're not going to get to a clear 
answer on that but thank you.
    And I yield back, Madam Chairman.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Massachusetts, Congressman Lynch, is 
recognized. Congressman Lynch.
    Mr. Lynch. Thank you very much. I want to thank all of the 
witnesses for your willingness to come before the committee and 
help us with our work.
    Dr. Mason, I'm a former union president. I represented the 
ironworkers here in Boston. I also represented--as a labor 
attorney, a union labor attorney, I had the opportunity to 
represent the wardrobe workers, which is a group of women. 
Mostly, I'd say about 85 percent of the members of that union 
are women.
    And the one thing I want to point out, I know that your 
group, the Institute for Women's Policy Research, has done a 
lot of research around the role of unions and the impact on 
their membership, especially women and nontraditional employees 
in those unions, and the impact of the collective bargaining 
agreement on those workers.
    At least in the unions that I have represented, once the 
union wage is established, everybody gets that. So, whether 
you're a man, a White male, a woman, a woman of color, a person 
of color, everybody gets that wage, after the contract is 
negotiated. Every single person gets the same pension. 
Everybody gets the same health benefits. Everybody gets the 
same vacation and leave.
    So, I'm interested in hearing, Dr. Mason, how your research 
has assessed whether membership in a union is better for women. 
Are women in unions doing better than women who are working in 
a nonunion environment where the wage rates and benefits are 
less firm and not transparent?
    Ms. Mason. So absolutely. Thank you for that question. So, 
women in unions fared better during the economic downtown. They 
had more job security. Their wages were stable. They had paid 
sick leave, benefits, so, yes. When we think about union 
membership and the importance it is, you know, how important it 
is for women, and also mitigating things like the pay gap and 
making sure that women are able to economically provide for 
their families, absolutely.
    What we know also is that when we think about anti-pay 
secrecy laws which are on the books in many states, when we did 
a--in one of our recent reports, we found that most companies 
and states were not following anti-secrecy laws, but women who 
were part of a union, those organizations and companies did 
follow anti-secrecy laws, and wages were higher. So, there is a 
definite benefit to women who were a part of--members, 
especially in moments like this, economic downturn. It does 
provide women with more job security, and they are able to, 
again, take care of their families.
    Mr. Lynch. Tell me, Doctor, I know you focus pretty much on 
the impact of the pandemic. Have you done research enough to 
make a broader assessment? You know, let's--not just in the 
pandemic but talking about generally, you know, whether we have 
an upbeat economy or a, you know, a downturn like we're 
experiencing now, what is the impact on women in the union 
environment versus being not in a union environment? How does 
that play out?
    Ms. Mason. So, generally speaking, women who are part of a 
union earn higher wages, have better job protections, job 
security, and, again, have pensions, you know, retirement, 
investment accounts. So, in general, regardless of whether or 
not we're in an economic downturn or at this moment in the 
pandemic, women in unions are--unions are really critical to 
women's--building women's long-term economic security and 
success, especially when we think about women entering 
nontraditional, higher paying sectors. Unions are critically 
important to their success.
    Mr. Lynch. OK. Thank you very much. I appreciate your 
research and your testimony.
    And, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Texas, Mr. Fallon, is recognized. Mr. 
Fallon.
    Mr. Fallon. Madam Chair, thank you very much.
    You know, we live in a market-based, free-enterprise 
economy. And, generally speaking, the more that the central 
government, and in our case here today, the Federal Government 
meddles with the private sector and nibbles away at their 
liberty, the worse off the private sector is, both owners and 
employees alike, men and women, as well as the country as a 
whole.
    We see this play out time and again, so we should and 
really need to tread lightly when discussing more regulation, 
rules, and codifying compulsory actions and behavior. The 
market should drive wages, and that's the free market. We've 
heard--not the government market, the free market. We've heard 
for years claims by some that American women on average, and 
we've heard different varying figures, $0.70 on the dollar, 
$0.82 on the dollar for what male counterparts make, but what 
many folks don't realize is that's not a fair comparison apple 
to apple, and we've heard a little bit about that today. It's 
simply comparing median earnings of all men and women 
classified as full-time employees. That's a misleading figure, 
and it's unfair not to take into account other factors.
    For instance, the job itself, the skill level of the 
employee, the experience of the employee, the hours worked by 
that employee, and that's very interesting to note here is 
according to the Department of Labor in 2019, the average male 
worker put in 8.32 hours per day compared to the average female 
worker who logged in 7.73 hours per day. That alone accounts 
for a seven percent difference.
    As a whole, female workers consider--tend to consider and 
choose flexibility, which can account for lower wages, while 
men, on average, gravitate to a higher degree, toward less 
desirable work hours, location, and occupation so long as it 
pays a higher wage.
    Until I took this most recent job three months ago, this 
most recent government job, I had been an entrepreneur for 25 
years. My goal, like nearly all of the millions of other 
business owners across the country, was to hire the best people 
possible. I never gave a hoot about their ethnicity, race, 
gender, or sexual preference. Didn't care about it on an 
application. Didn't care about it when they became my employee 
because it was immaterial, and it was irrelevant.
    Now, let's just put aside even the morality and the legal 
considerations, because pay discrimination has been illegal in 
this country since the Equal Pay Act of 1963 and reinforced by 
the Civil Rights Act of 1964. But even putting that aside, it's 
simply really bad business to discriminate in these callous 
ways. It's so incredibly difficult to find good employees, and 
to find great ones, it's even tougher.
    My point here is that I'm no different than the other 
millions of business owners around the country. We all aim to 
find talented folks, hire the best people, and pay for 
performance. The cream rises to the top, as it were. And if 
these alarming disparities that some claim that exist, if they 
existed in actuality, let me ask you this question, think about 
this: Why would--you have to ask yourself, why would businesses 
not just hire all women? Because we know how talented female 
workers are in America. They are certainly equal and just as 
capable as their male counterparts.
    If a business owner could get an employee to do the same 
job but only have to pay $0.70 or $0.82 on the dollar, $0.53 on 
the dollar, what have you, why wouldn't you do that across the 
board, hire your entire work force in that manner? Ownership 
would save a colossal amount of money on wages. Your labor 
costs would collapse, and your profits would rise.
    But that doesn't happen. And why? Because this alleged wage 
gap is grossly overstated and exaggerated for political 
benefit. And any type of, quote, Paycheck Fairness Act would 
almost certainly result in fixed pay scales by companies, and 
that's just awful, the result of which we see, you know, the 
output in productivity crumbling as the best employees, both 
men and women, the one that work the hardest, work the longest 
hours, and work the smartest would suffer the most because many 
businesses would be unable to have the option to pay bonuses 
and give spot raises and properly reward and incentivize their 
highest producers. This also we saw play out, I believe, in 
Denmark when this happened over there.
    So, this is about the free market and this is about 
liberty, and this is about what the market will bear in all 
things, whether it's sports or business.
    So, thank you for the opportunity to share my thoughts 
today, Madam Chair, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Virginia, Mr. Connolly, is now 
recognized. Mr. Connolly.
    Mr. Connolly. Thank you. Thank you, Madam Chairman. And let 
me begin by saying oh, my God. What we just heard requires you 
to forget a blatant history of exclusion and discrimination and 
direction with respect to women's careers. Ruth Bader Ginsburg, 
one of the most outstanding jurists in American history, 
couldn't get a job in a law firm because of her gender. That's 
not ancient history. That's not the market working perfectly. 
That's, in fact, an enormous failure to recognize talent. The 
opportunity cost of that for the first 200 years of the 
Republic is incalculable.
    Mr. Fallon would have us believe the market will take care 
of it, and we don't need no stinkin' Federal regulations to 
interfere with that perfect market.
    Dr. Mason, help me here with a little bit of history and 
this whole idea of the market is perfect and will self-correct.
    Ms. Mason. So, it is right that we live in a market 
economy, but the market economy is not working for women and 
people of color, workers who are in sectors that are lower wage 
and lower earning.
    So, one of the things I want to correct that was said is 
that this idea that if--you know, if businesses should just 
hire all women if they could get them on the cheap. That is 
just not how this works. We need to talk about labor market 
segmentation and the fact that there is not one sector that is 
dominated by women where they out earn men. So, let us just 
start there. And when men are--enter sectors that are dominated 
by women, they earn more. And, again, the inverse is not true. 
So, we need to understand that.
    And the other thing I want to say and be very clear about, 
that this is not about individual choices. It is not about what 
I was able to do and pull myself up by the bootstrap. This is 
about the collective good, our values, and how we might be able 
to support the most vulner---economically vulnerable in our 
society. I don't----
    Mr. Connolly. Dr. Mason, if I could just interrupt a little 
bit. Help me with history, though. Is it not true that whole 
professions were actually denying women until relatively 
recently? You could be a nurse, but you couldn't be a doctor.
    Ms. Mason. Absolutely.
    Mr. Connolly. You could be a legal assistant, but you 
couldn't be a lawyer.
    Ms. Mason. Absolutely.
    Mr. Connolly. You certainly couldn't be a jurist. I mean, 
we could go down through profession after profession that were 
absolutely closed to women, not by law, but by that free market 
Mr. Fallon thinks is so perfect.
    [Inaudible] on that a little bit, and the harm that caused 
and the wage gap that created that was structural.
    Ms. Mason. So, again, labor market segmentation and a lot 
of the gender disparities that you were speaking about have 
been institutionalized by practice, individual behaviors 
blocking women from holding particular jobs, and it had a has a 
detrimental impact to women's career advancement and the 
mobility in society. You are absolutely right, women have been 
barred from holding positions, not because they don't possess 
the skills, talents, and abilities, because people, men 
particularly, are telling them no and barring them from being 
in those professions. And what we miss out when we do that is 
talent, contributions, productivity. The economy suffers when 
we do that.
    So, historically, we also have to remember that it wasn't 
until 1963 and 1964, that, you know, we passed the civil rights 
amendment which guaranteed equal protection under the law for 
workers. We're still battling around issues of pay equity and 
pay transparency. These are problems that are happening today. 
So, this idea that the market will take care of these things, 
we know it is not true. Even how we measure economic security 
and prosperity is outdated, and we should really think about 
how we are helping the most and protecting the most 
economically vulnerable.
    Mr. Connolly. Thank you. I think you could even make the 
opposite case that the market actively worked against gender 
equality and opportunity for women. And I might say, in 
closing, that applies to our own profession, politics. Until 
very recently, women were discriminated against. They really 
weren't up to it, and they never got elected in large numbers. 
And we're working hard to try to redress that imbalance in our 
own profession.
    So, the idea that the market is perfect and is self-
correcting is false on its face, the opposite is true, and that 
is precisely why we need Federal Government intervention to 
help redress that imbalance.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    And the gentleman from Georgia, Mr. Clyde, is now 
recognized. Mr. Clyde.
    Mr. Clyde. Thank you, Madam Chairwoman Maloney. I 
appreciate all of the witnesses being here. Thank you for 
joining us today.
    And, first, I must commend my colleague, Congressman Pat 
Fallon, for giving a fantastic description of what it is like 
to actually be a small business owner and hire employees and 
pay employees in the market. So, thank you, Congressman.
    You know, as a small business employer for over 20 years, I 
have serious concerns about how many of the proposals discussed 
at today's hearing, including the Paycheck Fairness Act, could 
have a negative effect on businesses across the country if they 
actually became law. These proposals would not just tie the 
hands of small business when it comes to negotiating fair pay 
for employees, but it would also limit their ability to grow 
and expand operations.
    Now, we are here to discuss equal pay, and while that 
notion sounds great at face value, the American people should 
know that when we talk about equal pay in the context of this 
hearing, we are really talking about doing away with choices, 
choices made and enjoyed by employers and workers alike. Yes, 
there may be a raw wage gap, as my Democratic colleagues have 
pointed out already, but when we adjust for factors such as 
hours worked, benefit compensation packages, and flexibility of 
schedule, that gap becomes much smaller, in most cases between 
2 and 10 percent, and that's because of choices made by 
workers, male and female alike.
    You also have to look at the companies themselves. If they 
have different abilities to earn profit, then their abilities 
to pay their employees will be different. So, comparing wages 
within a company is one issue, but comparing wages between 
different companies is a completely different issue in and of 
itself.
    So, my first question is for Ms. Onwuka. No. 1, do you 
believe the laws I just referenced, and that is the Equal Pay 
Act of 1963 and the Civil Rights Act of 1964, that protect 
women from gender-based pay discrimination in the workplace are 
adequate? A yes or no would be acceptable, please.
    Ms. Onwuka. Congressman, yes.
    Mr. Clyde. OK. Great. I agree with you in that. I'm a 
proponent of rewarding hard workers and high performance in the 
workplace. So, can you tell us more about why fixed pay scales 
would disincentivize work, if you agree with that?
    Ms. Onwuka. Sure. I absolutely agree with that. When we 
look at what men and women value in the workplace, they value 
different things. And this is interesting. From a 2019 Pew 
survey, mothers significantly valued time off or working fewer 
hours compared to fathers who valued promotions. So, when you 
look at men and women, the choices that they make, and, you 
know, I've heard some different panelists talk about this is 
not about choice. It absolutely is, because I think when women 
have more flexibility to decide whether they want to pursue an 
opportunity that takes them out of the home for longer, maybe 
puts them on the road traveling much more, they may say, no, 
I'd actually rather maybe take a pay cut or stay in my current 
position. And then maybe a male would be willing to say, well, 
I want to provide more for my family, so I'm willing to be on 
the road much more. I'm willing to be on call as a lawyer, for 
example.
    So, flexibility is absolutely one of those driving forces, 
particularly for many women in the work force. For every woman? 
Perhaps not, but for many women, and I think that's what's 
reflected in the choices they make and reflected in the pay 
gap.
    Mr. Clyde. All right. Thank you. So, do you think it's fair 
to say that people are generally happier when their work is 
rewarded in different ways?
    Ms. Onwuka. It's absolutely fair to say that. And when we 
look at independent contractors, for example, you talked about 
being a small business owner. There are millions of people who 
are freelancers, millions of people who don't--who are not 
employees, but they actually are their own bosses. Happiness, 
fulfillment, flexibility are the No. 1 reasons, particularly 
for women.
    Mr. Clyde. Well, great. Thank you. Last, can you tell us 
how the free market penalizes employers who discriminate? As a 
small business owner, myself, I know that having, you know, the 
best employee I can possibly afford benefits my company, you 
know. So, how does the free market penalize employers who 
discriminate?
    Ms. Onwuka. Absolutely. I mean, in particularly a tight-
jobs market, it becomes increasingly harder for employers to 
retain good talent. So, if you start to discriminate, if you 
are paying a man and a woman, similar job, similar title, no 
other variables that are foreseeable, if you're paying that 
woman differently, she very well may leave. And if she's a 
higher performer, you have now lost an asset to your company. 
And so, when you expand that across the entire economy, you 
start to see that it's good business. It's good corporate 
social responsibility to be good to your workers.
    Do we see that in every single industry? I would love to 
say yes, and if we can move toward that as a country. But 
overwhelmingly, I do think there are a lot of employers 
recognize that keeping high-quality, high-performing talent is 
important. And it's important for the bottom line because 
turnover is expensive, particularly in things like fast food 
and other industries.
    Mr. Clyde. Oh, absolutely. I agree with you that turnover 
is very expensive. You know, you have to retrain, the cost of 
retraining, and employers don't want to do that. They want to 
keep their employees, so they want to pay them appropriately. 
Thank you very much. I appreciate that.
    And my next question is for Ms. Rapinoe.
    Chairwoman Maloney. The gentleman's time has expired, and 
Ms. Rapinoe has left to go to another meeting.
    Mr. Clyde. OK. Well, thank you. I yield back, Madam 
Chairwoman.
    Ms. Mace. Madam Chair?
    Chairwoman Maloney. Pardon me?
    Ms. Mace. Madam Chair, Mr. Connolly directly mentioned Mr. 
Fallon in his questions earlier. Can we yield 30 seconds to Mr. 
Fallon to respond, please.
    Chairwoman Maloney. He did not call for a point of personal 
privilege.
    The gentleman from California, Mr. Ro Khanna. Mr. Ro Khanna 
is now recognized for five minutes.
    Mr. Ro Khanna, unmute. Is he here?
    Mr. Fallon. Madam Chairwoman, with the technical difficulty 
there, I'd love to call for a point of personal privilege to 
respond.
    Mr. Khanna. Madam Chair, am I recognized?
    Chairwoman Maloney. After Mr. Ro Khanna. You are now 
recognized, yes, uh-huh.
    Mr. Khanna. Thank you, Madam Chair.
    I just want to start by correcting the record about some of 
the misinformation about trans women's participation in sports 
and cite some of the data.
    First of all, since 2004, the Olympics have had a policy 
that is trans inclusive. And guess what? Not one trans female 
has actually qualified, even at that level. So, this is just a 
totally manufactured concern. Yale University has done a study 
that actually says that higher testosterone levels do not 
provide competitive advantage.
    And the third point, which is completely neglected, is that 
trans women face bullying. They face harassment. It actually is 
one of the biggest challenges to compete for trans women.
    So, when we're going to have these conversations, I just 
hope we could have conversations based on facts, based on data, 
based on what the Olympics at the highest level are doing, as 
to what my state in California has done since 2013 and hasn't 
been an issue, and not engage in conjecture.
    The second point, before I turn to the panel, that I want 
to emphasize, is this idea that--of the free market. The free 
market is what we define the market to be. If, as some of my 
colleagues suggested, that discrimination would not be in the 
interest of the free market, then what was the need for the 
civil rights law? Obviously, we needed the civil rights law 
because there was discrimination even with the market. And what 
we're talking about is not eliminating in any way the market. 
It's not against the market. It's saying that we need to define 
the market in a way that is going to promote dignity for all 
individuals because the current definition of the market, the 
current laws, are creating systemic inequality.
    So, this is not a question of do you believe in the market 
or not. It's a question do you believe the market should 
respect the dignity of every individual.
    My questions I want to focus on this--on the idea that 
women, as Kimberle Crenshaw's work has shown, are not a 
monolith, that we have intersectionality, that, yes, women face 
discrimination, but the class, race, and sexual orientation 
adds barriers. And I want to focus in particularly on trans 
women in my questioning.
    If we could go to Dr. Mason. Can you please explain what 
factors have led to devastating economic outcomes for the trans 
community and what they mean for trans women specifically?
    Ms. Mason. So, thank you so much for this question and for 
bringing Kimberle Crenshaw into the room, a leading 
intersectional scholar who allows us to understand that it is 
not only about gender but also the intersections of race, 
class, gender, sexuality, gender identity, and other markers of 
difference.
    So, what we have to know that discrimination--we talk about 
gender discrimination, but when we talk about trans women, it's 
really important to know that there are multiple barriers to 
their economic security, which includes workplace 
discrimination, refusal to hire, and decreased earnings, 
especially as people transition. They see a marked decrease in 
earnings.
    It's really important--and then if we look at Federal and 
state laws, we also have to know that many of the protections 
we have on the books, even the civil rights law, you know, 
discriminates or allows the interpretation of such laws to 
discrimination against trans women and individuals and 
communities.
    So, when we think about the pay gap, what we--we don't have 
enough data to help us understand the magnitude of the problem, 
but we absolutely understand and know that trans women, trans 
people face insurmountable, in some instances, you know, 
barriers to economic security, including lower pay, lower 
wages, discrimination in the workplace, firing, not being able 
to receive any kind of legal remedies.
    So, again, it is really important to provide a fuller 
context for this conversation even when we talk about payment 
and hiring and free market economy, understanding that 
different women are impacted differently in the economy and in 
the work force.
    Mr. Khanna. Thank you for that, Dr. Mason. In fact, you're 
absolutely right; I mean, the human rights campaign found that 
nearly 30 percent of transgender individuals have been forced 
to take unpaid leave during the pandemic as opposed to just 
seven percent of the general population. That is more than four 
times as much the disparate impact on transgender women.
    I guess I would ask you, what policies can the United 
States implement as part of the economic recovery to ensure 
equity for transgender women and, more generally, to consider 
Kimberle Crenshaw's paradigm-breaking scholarship on 
intersectionality? How should that inform our policy?
    Ms. Mason. So, what we need to do is make sure that 
policies are representative and inclusive and not exclusionary 
to trans people, making sure that our Federal policies and 
laws, including the equal rights amendment, is gender inclusive 
and representative. You know, think about--thinking also about 
the ENDA, the Employment Non-Discrimination Act, making sure 
that it is trans inclusive. These are all things that will go a 
long way into making sure that some of the challenges we see 
for trans women in terms of employment, as well as earnings and 
wages over time, we can mitigate those.
    And the other thing I do want to lift and bring into this 
conversation and for the record is that 15 percent of trans 
people report making and earning $10,000 or less per year, a 
rate of poverty that is nearly four times that of the general 
population. And many report losing a job because of bias and 
report experiencing some form of workplace discrimination. So, 
we can let the market work, but we understand that the market 
is imperfect and that we need inclusive and representative laws 
to make sure that we can close some of these gaps that we've 
been talking about today.
    Mr. Khanna. Thank you.
    Ms. Poo, could you briefly explain the concept of, quote, 
chosen family, and how the pandemic has placed additional 
burdens on trans women who care for members of their chosen 
families?
    Ms. Poo. Essentially, all of us have people in our lives 
who we care for. We have loved ones, and the definition who we 
care for and who care for us. The former first lady, Rosalynn 
Carter, said there's only four kinds of people in this world: 
People who are caregivers or will be caregivers, people who 
need care or will need care. And we have in our country an 
incredibly expansive and non-monolithic, pluralistic way in 
which we express family. And the ways in which we choose 
oftentimes who is considered family, who we care for and who 
will care for us, it's not necessarily just on the terms of 
biology.
    And so--and we believe that it is very important that we 
have a very inclusive definition of family to support all the 
ways in which we are caring for the people that we love in our 
lives and they are caring for us.
    Mr. Khanna. And has the lack of comprehensive paid family 
and medical leave programs disproportionately harmed trans 
women because of our exclusive definitions of family?
    Ms. Poo. Absolutely.
    Chairwoman Maloney. The gentleman's time has expired, but 
the gentlelady may answer the question.
    Mr. Khanna. Thank you.
    Ms. Poo. Absolutely. I think this is a moment to reset our 
definitions and our frameworks to be as inclusive as possible 
so that we leave no one behind in our economic recovery. As a 
group that represents domestic workers, a population of workers 
who was left out of the new deal explicitly excluded from the 
Nation Labor Relations Act and the Fair Labor Standards Act, we 
need to have a very close eye on who we may be excluding in our 
definitions of our economic policy moving forward, because 
there are generational impacts and inequities that will 
continue if we do not do so.
    Mr. Khanna. Thank you.
    Chairwoman Maloney. OK. The gentleman's time has expired.
    And in the spirit of fairness, the gentleman from 
Wisconsin, Mr. Grothman, is recognized. He can yield some time 
to Mr. Fallon. Our parliamentarian ruled there was no violation 
of decorum, the mentioning of the name was addressing--
addressed in the substance. They were discussing substance, not 
a personal attack.
    I now yield to Mr. Grothman.
    Mr. Grothman. Right. And in the interest of fairness, I 
yield my first 30 seconds to Congressman Fallon's response to 
comments made earlier.
    Mr. Fallon. Well, thank you, sir.
    You know, our esteemed colleague, Mr. Connolly, took 
exception to my comments because of the history of sexism and 
discrimination in years past in these United States. He said 
that Ruth Bader Ginsburg entered the work force in 1959. My 
assertions and comments obviously would not have held true in 
1959, but, sir, they do in America in 2021. The free market 
isn't perfect, but it's a whole world better than a regulated 
central planning.
    I yield back. Thank you.
    Chairwoman Maloney. Mr. Grothman is recognized.
    Mr. Grothman. Thank you.
    I'll begin with a question to Ms. Onwuka. I hope I got that 
right. Are you familiar with a Harvard study in 2018 comparing 
people in identical jobs, the Massachusetts Bay Transit 
Authority, in which men took 83 percent more overtime hours 
than women and took 48 percent fewer unpaid workers off?
    Ms. Onwuka. Congressman, yes, I am. I've read that study.
    Mr. Grothman. It's an illuminating study. And I know, you 
know, there are people are going to maybe hate some of the 
people who work there for the choices they make. But do you 
want to give us those numbers again and what we can learn from 
them?
    Ms. Onwuka. Well, I don't have it off the top of my head or 
in front of me, but just overall, some of the trends we saw, 
women tended to drive during daily--during the daytime rather 
than during the evening for their own security. Women chose to 
do longer trips rather than men doing shorter trips. And women 
just--you know, their choices around, you know, when they're 
working and the flexibility, they really scheduled it. They 
weren't working as much on the weekends and particularly 
overnight during those peak moments when obviously, for 
everyone who's ever taken Uber, you know, you can certainly 
earn a little bit more from all those partiers and club goers. 
So, you know, I think women are prioritizing flexibility, but 
also in that case, they're prioritizing their own safety and 
security.
    Mr. Grothman. Right. And men in that study, correct, took 
83 percent of the overtime hours? So, whatever reason, both on 
the same job, men were more likely to grab overtime, right?
    Ms. Onwuka. Yes.
    Mr. Grothman. And so if we did a study of people in 
identical position, you know, riding the buses or subways or 
whatever we have in Massachusetts there, if you looked at that, 
you would say we have a problem. Some people would say we have 
a problem there with men making more money than women, even 
though women had made that choice and men had made that choice. 
It seems like some of the other witnesses hate people for that, 
and it seems like they want to make it against the law to make 
those choices.
    What do you think about the idea that, you know, it should 
almost be against the law or there's something horrible about 
women not wanting overtime? Should we have to force the women 
to take the overtime, or how should we have to deal with that?
    Ms. Onwuka. Well, frankly, I mean, I think it's 
paternalistic, frankly, to tell a woman what she should do, 
tell a woman what hours she should be driving. And just to 
clarify for a moment, I was thinking of a study related to 
women and men in the Uber driving, ride-sharing world, and 
you're referring to mass transit bus drivers. And I read that 
study as well, and I do think that there are some similarities, 
as you'd pointed out.
    But just overall, I mean, I think what's important about 
where we are in 2021 is the fact that women have so many more 
choices than they did in 1963, 1964. And I think that's 
reflected in the growth of women entrepreneurs in this country. 
And so the idea we need to tell a woman what hours to work, to 
schedule her, or this idea that legislation, Federal 
legislation would somehow eliminate the pay gap overnight, 
whether that's gender-based pay gap, also layering on race and 
layering on gender identities, that's not going to happen 
because, again, individuals are sorting. Using economic 
terminology, they're sorting into the types of occupations 
they're interested in, and it's not just for pay, particularly 
for women. It could be flexibility. It could be fulfillment. 
And so, we have to respect the choices that women get to make. 
We should not be determining or telling them what choices they 
need to make.
    Mr. Grothman. Right. And it is apparent from some of the 
other witnesses we have today almost the hatred against a woman 
who wouldn't want to work the overtime. And, of course, that's 
a decision we all have to make to work 40 hours a week, to work 
50 hours a week.
    In the end, do you think maybe people, other witnesses up 
here, are going to have to work to the point where women are 
going to have no choice but to work overtime because they want 
in the future these studies to show men and women making 
identical amounts? Is that a danger out there?
    Ms. Onwuka. I would hope not. Perhaps it is a danger. I 
don't think so, because people are making choices for 
themselves. You know, I don't think that it's possible. What I 
do think you're going to see is that when corporations, for 
example, are penalized for some sort of pay gap that's based on 
these, you know, misleading statistics, these just raw numbers, 
they will make decisions, H.R. decisions to say, well, I'm not 
going to negotiate with you as an individual for what you want. 
I don't want to have the government come down on me and bring 
the hammer. So, we've got to be careful that Federal law does 
not backfire on women in the work force.
    Mr. Grothman. Right. I can see the day in which a company 
would say you've got to work overtime because I've got to make 
the form work out right for these diversity bureaucrats.
    Thank you for your answers and thank you for giving me a 
couple extra seconds.
    Ms. Onwuka. Thank you.
    Chairwoman Maloney. Thank you.
    The gentleman from Maryland, Mr. Raskin, is now recognized.
    Mr. Raskin. Thank you, Madam Chair.
    Well, with that set of questions, I think we've arrived at 
an interesting place in the conversation. Everybody seems to 
agree that if a man and a woman are both doing the exact same 
job, and the woman is paid 20 percent less, it's against the 
law under the Equal Pay Act. And there are cases like that all 
the time.
    But as one of our colleagues pointed out earlier, that may 
account for a small percentage, I think she said, 2 to 5 
percent. I think it was 2 to 5 percent of the wage gap. So, 
really, when we talk about these dramatic differences in what 
women and men make, it has to do with structural inequality 
within the work force. And Mr. Grothman has just offered the 
theory in that last colloquy that this is all about the choices 
that women make, the flexibility that women want to have, the 
fulfillment choices they're making.
    It is interesting that with millions and millions of people 
in the work force, the flexibility and fulfillment choices made 
by women always seem to end up with women making a lot less 
than men. It never randomly seems to work out the other way, 
that the fulfillment and flexibility choices men seek end up in 
men making less money.
    But I want to go to some of the people who actually study 
this, and I'd like to ask Dr. Mason this question: If we've got 
structural discrimination, that there's certain sectors of the 
work force, like childcare, elder care, other caring 
professions that are systematically underpaid, and this is 
associated overwhelmingly with women being in those positions, 
would we say that that's the just the market operating or is 
there something that we can do about that if we're interested 
in actually rewarding women equally and empowering them?
    Ms. Mason. So, one of the things I want to say is that if 
we were really, truly talking about a market operating the way 
that it should, then care workers, elder care workers would be 
making much, much more. But because the sector is dominated by 
women, wages are depressed. And so, this is not simply about 
the market doing its thing, because we know that in a market 
economy, women are disadvantaged because of historic, racial, 
and gender discrimination.
    And when we talk about choices, it's also important to 
remember that for many women, these are constrained choices. 
These are not choices with the full range of options. Women 
perform 30 percent more care work compared to their male 
counterparts. So, when you talk about overtime and you talk 
about women making choice to have more flexibility, what we 
have to understand, for many women it's really not a choice. 
And when we factor in women's unpaid labor, we're talking about 
billion--billions of dollars each year that disappears, you 
know, into the economy because women are not being compensated 
or losing out----
    Mr. Raskin. I wanted to followup by going to Ai-jen Poo on 
the same question. You pointed out that when the National Labor 
Relations Act was passed back in the 1930's, that domestic 
workers were specifically excluded from the ability to organize 
under the Wagner Act, just as farmworkers were also roped off. 
And there were clearly both racial and gender dimensions to 
those decisions by Congress.
    To what extent did those legislative decisions end up 
affecting or depressing the wages and benefits that were earned 
by, in this case, domestic workers over the succeeding eight or 
nine decades? Does that explain one--is that one of the reasons 
why domestic work is so poorly compensated today?
    Ms. Poo. It absolutely is. In fact, the Fair Labor 
Standards Act that established the minimum wage also explicitly 
excluded both farmworkers and domestic workers. And those 
exclusions set the tone for the treatment of domestic work and 
care work and our law and policy for generations since.
    Mr. Raskin. So, what legislative changes are you fighting 
for now?
    Ms. Poo. We are currently fighting for a Domestic Worker 
Bill of Rights at the Federal level, legislation that is 
sponsored by Congresswoman Pramila Jayapal, and will be 
reintroduced in May. We are also fighting for a big investment 
in our care economy overall as part of our jobs and recovery 
plan.
    And this is really important because we have been talking a 
lot about infrastructure investments and how important it is, 
bridge, bridges, tunnels, broadband, absolutely. And I would 
argue that care giving, childcare, paid leave, home-and 
community-based services for the elderly and people with 
disabilities, and the work force that supports those essential 
needs on the part of working families are essential 
infrastructure in order to enable our economic recovery and our 
ability to get back to work. Care jobs are job-enabling jobs.
    Mr. Raskin. Well, it sounds to me like the equal pay agenda 
you're describing is also a family values agenda because it's 
in an investment in the work force that cares for our families.
    My time is up. And I thank you for your indulgence, Madam 
Chair. I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Illinois, Mr. Davis, is recognized for 
five minutes.
    Ms. Tlaib. Congresswoman Tlaib is now recognized.
    Ms. Tlaib. Thank you so much, Chairwoman. I really 
appreciate us doing this hearing. I think it's critically 
important, and I sincerely appreciate it.
    I'd like to use my time today, though, to focus on our 
unique--the unique obstacles of many of my fellow women of 
color who must contend with systematic racism and sexism in 
particularly every aspect of their daily lives, which 
significantly impacts their access to education, housing, 
healthcare, and so much more.
    For example, while Black and White women have fairly 
similar high school graduation rates, White women are about 10 
percent more likely to be able to access higher education.
    This March, Chairwoman, there was a study called Black 
Womenomics which found that this gap is the result of 
disparities in school funding and equality--a quality 
education, explicit and implicit classroom biases, and access 
to fewer financial resources, again, not due to choice, but due 
to the systems that are in place that are holding back our 
Black women. And so, I ask unanimous consent to enter into the 
report the Goldman Sachs Black Womenomics study, if I may.
    Chairwoman Maloney. Without objection.
    Ms. Tlaib. This education gap which begins with access to 
early childhood education is one of the biggest reasons that 
women of color make less than both White men and women on 
average. And, in fact, this intensifies the existing historical 
barriers to home ownership, which is something that's 
critically important to address wealth generation--wealth gap 
generations among people of color across the country, as well 
as the impact of redlining in racially motivated policies.
    Black households are still 15 percent less likely to own 
homes than our counterparts, even when controlling for like 
income or education, age, and household status.
    So, Dr. Mason, for the benefit of everyone here, could you 
explain how home ownership gap impacts the ability of women of 
color and their families to be able to obtain wealth or 
economic stability in our country?
    Ms. Mason. So, what we're talking about is communaltive 
disadvantage, so what--and that just means the impact of 
historic policies that have discriminated against communities, 
particularly related to home ownership. So, like redlining, 
predatory lending practices, you know, not having access or 
earning wages to be able to afford for the down payment. All 
these things impact Black women and the Black community's 
ability to--for home ownership.
    The other thing we have to know is that in 2008, for 
example, with the collapse, the previous economic recession, 
the foreclosure rate of Black women and Black families was 
extremely high, and that stripped whole commu---entire 
communities of wealth that they're never going to get back.
    And in this moment during the pandemic, one of the things 
we did learn was that we needed to pause and have a 
foreclosure--excuse me--a moratorium on foreclosures and 
evictions. But what we don't know, for example, is the impact 
of those moratoriums once they are lifted. And what I'm--what I 
believe is that it will have a disproportionate impact on 
communities of color, homeowners of color, and will, once 
again, we'll see a stripping away of wealth.
    Ms. Tlaib. Thank you so much, Dr. Mason. You know, we know 
that women of color in our country are put at a huge 
disadvantage from the start because of various systematic 
racism and sexism structures, again, that have been set up to 
make it even more difficult for them to be able to thrive in 
our country. And I know, and I want to emphasize this, we don't 
need more studies to tell us that. We already have the data and 
the information.
    What I do know is that as somebody that represents the 
third poorest congressional district, as somebody that has seen 
our state, the state of Michigan, lost more Black home 
ownership than any other state in the country, that we need to 
start looking at some of these structural changes, like the 
BOOST Act that would allow people that make less than $100,000 
to be able to get a tax credit directly and uplift about 45 
percent of people out of poverty. We need a living wage. We 
need to prioritize books in schools over bombs and submarines. 
You know, this is what we need to do is try to make sure that 
our budget is fitting those values and making it easier for 
every single person in our country to be able to access to 
thrive. These are the type of things that I know, we know, all 
of us know, that will help every single woman in our country.
    And so I think it's very important as someone that is in 
this space, that I am bringing my own lived experiences, being 
a child of immigrant parents but also as a woman of Muslim 
faith, and in these spaces that I don't want to just be put in 
as a body to diversify the space. I also want to be able to 
help shape these policies, and I'm asking all of my colleagues 
to understand and listen. Listen to these lived experiences and 
understand what we're telling you is the truth. It is harder 
for women like us to be able to thrive in our country, and we 
need to change that.
    And the reality is you all are deciding to silence us, to 
try to make us less credible in these spaces versus actually 
listening to us and making our country even better than it--you 
know, than it can because this type of racism and this time of 
silencing of women like us is not going to help us all thrive.
    Thank you, and I yield.
    Chairwoman Maloney. Thank you. Thank you so much.
    The gentleman from Illinois, Mr. Davis, you are now 
recognized. Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman. I want to thank you 
for this very informative hearing. And also, I want to thank 
all of the witnesses.
    As a member of the Ways and Means Committee and as chairman 
of the Subcommittee on Worker and Family Support, I'm going to 
ask about the assistance programs that provide lifelines to 
low-income individuals and families. As women and women of 
color are overrepresented in the low-wage work force, access to 
these programs and the efficiency of them are particularly 
important.
    The American Rescue Plan expanded the earned income tax 
credit and child tax credit so that more workers and families 
could benefit from them. The Center for Budget and Policy 
Priorities estimates that these policies will cut the poverty 
rate of Black children from 17.8 percent to 9.7 percent and the 
poverty rate of Latino children from 21.7 percent to 13.4 
percent. Other studies have concluded that overall, child 
poverty could be cut in half. The Center has found that 497,000 
personal healthcare workers and 474,000 childcare workers would 
benefit from the child tax credit expansion.
    Ms. Poo, let me ask you, how is additional assistance for 
children important to strengthening the care industry 
infrastructure and supporting the workers in that industry? And 
should Congress consider structural changes that extend these 
policies beyond the duration of the coronavirus pandemic?
    Ms. Poo, would you--thank you.
    Ms. Poo. Thank you, Congressman Davis, and I'm honored to 
have you as my Congressman. And I cannot overstate the 
essential nature of the measures to address child poverty and 
support our Nation's children that were a part of the American 
Rescue Plan. It is an absolute game changer.
    If you take domestic workers who are providing care in our 
care economy as their profession, the majority of them are 
primary income earners for their families and the majority are 
also mothers of small children, and they will benefit from 
these temporary measures. What they've been given with the 
rescue plan is essentially a life preserver, and what they need 
is a boat and a path to reach the shore.
    And though we do need to make these measures permanent, and 
we need to look at how we boldly invest in childcare, in paid 
leave, in home and community services, including the ability to 
raise the wages for the care work force so that we can sustain 
the workers who work in this economy.
    There are high rates of turnover in the care work force 
because the wages are so low. We often lose some of our best 
caregivers to other low-wage service professions because they 
can earn a better--they can better make ends meet. There are 
massive labor shortages in home-and community-based services. 
People with disabilities and their families, older people are 
waiting for services, and we cannot offer them because there 
isn't enough funding in the system and because the workers are 
underpaid and cannot sustain doing this work.
    So, there's a huge amount that we need to do in order to 
secure our care infrastructure to enable economic recovery, and 
the American Rescue Plan is a really important step. It really 
points the way forward for us.
    Mr. Davis. Thank you so very much for your expert 
testimony.
    And I want to thank all of the witnesses, Madam Chairman. 
And I appreciate the fact that this hearing demonstrates that 
we can't just deal with the pandemic in terms of a response, 
that we need cures that go far beyond the pandemic. And I trust 
that the Congress will understand that gaps in pay for women, 
the time has simply come where it can no longer exist.
    And I yield back.
    Chairwoman Maloney. The gentleman yields back. Thank you 
very much.
    The gentlelady from Florida, Ms. Wasserman Schultz, is now 
recognized.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Thank you, 
Madam Chair.
    For many working mothers, the pandemic added new childcare 
demands that forced them to step back from the workplace, or 
really even leave it altogether. In fact, since the start of 
the pandemic, women saw a net loss of more than 5.4 million 
jobs. As many as one in four women reported becoming unemployed 
during the pandemic attributed it to a lack of childcare, 
according to one analysis. That was twice the rate reported by 
men.
    Ms. Poo, how has the strain of childcare demands during the 
pandemic pushed working moms out of the workplace?
    Ms. Poo. Working moms in the pandemic were simply unable to 
manage the impossible choices before them, to figure out how to 
work and take care of their children who were home from day 
cares that were closed, schools that were closed, managing 
online learning while trying to work remotely, if that was an 
option for them, and it was simply too much to bear. And the 
truth is, is that our lack of support for caregivers, for 
working moms, for family caregivers coming into the pandemic 
was already incredibly tenuous. It was already unsustainable.
    What happened with the pandemic was essentially it made it 
completely untenable for huge numbers of women, especially 
women of color, and so it's the straw that broke the camel's 
back. And now we're back at 1988 levels of women's work force 
participation. We've got to address this if we are to recover 
from this pandemic.
    Ms. Wasserman Schultz. There's no question about it. 1988 
levels is the year I graduated from college, so that is 
basically my entire adult life. And I'm the founder of the 
informal ``Moms in the House'' caucus. We have a record number 
of women in Congress with school-aged children, and I'm 
concerned that if Congress fails to take bold action to address 
this, that we're going to have many more mothers that are 
permanently forced out of the workplace. So, thank you for your 
feedback.
    Dr. Mason, what kind of barriers do mothers face when 
trying to reenter the labor force?
    Ms. Mason. Well, what we know is that unless we're able to 
get the pandemic under control, which we're working really hard 
to do, and schools open and day cares open, women will not be 
able to reenter the work force in any significant way. And so, 
barriers that women face to reentering the work force is care--
we've already talked a lot about that--but also the 
predictability of being able to search for a new job.
    If you don't know when schools are going to reopen, if you 
don't have a date--available day care
    [inaudible] you're on a wait list, it makes it really hard 
to predict or apply for jobs or accept a job because you just 
don't know. It's just so unpredictable.
    The other barriers that women face it's the idea that there 
will not be a one-for-one recovery for those jobs that have 
been lost, so some women will have to enter new sectors all 
together. And so, there is a real need for education and 
training in this moment and making sure that women have the 
economic supports they need while they receive training and 
also so that they are able to take care of their families.
    Ms. Wasserman Schultz. Thank you. Really, in order to get 
our Nation's economy back on track, we have to address 
America's childcare crisis as far as part of pandemic recovery. 
The American Rescue Plan, thankfully, made serious headway in 
easing the gap that our childcare infrastructure has by 
providing $40 billion to help support families and providers. 
The historic expansion of the child tax credit helped so many 
low-income women and families that will finally be lifted out 
of the poverty and receive long overdue relief. But we have to 
gain a multipronged approach to support families so they can go 
back to work and send their children back to childcare.
    One additional step is enacting the Childcare for Working 
Families Act, which I'm proud to have joined with Chairman 
Bobby Scott in introducing last Congress. And that would make 
childcare more affordable across the United States and foster 
the development of a more robust childcare work force.
    I can tell you as a mother of three children who are well 
beyond childcare age now, the sticker shock that you face when 
you are trying to make sure that you can return to work and be 
able to afford the huge percentage of your income, particularly 
as a woman, that childcare usually costs is a massive obstacle. 
And so many families and couples have to decide whether it's 
worth it to actually have their--the mother usually go back to 
the labor force rather than stay home and not have that huge 
childcare bill eat into their overall income. So, thank you so 
much.
    Madam Chair, thank you for doing this very important 
hearing today, and let's hope this is one of the last equal pay 
days.
    Chairwoman Maloney. Thank you.
    The gentleman from Florida, Mr. Donalds, is recognized for 
five minutes. Mr. Donalds.
    Mr. Donalds. Thank you, Madam Chair.
    Panelists, thank you so much for being here with us this 
morning. I want to get right to it. I don't want to get into a 
bunch of, you know, leading speeches. But, Ms. Onwuka, I've got 
a question for you.
    You know, obviously the pandemic has created major issues 
for everybody across the country, including women. We've seen 
massive losses in jobs. We've seen communities shut down. We've 
seen schools close for far too long, quite frankly, which has 
actually led to a lot of families not being able to return to 
work or being put in a tough place with respect to are they 
going to, frankly, watch their kids at home or be able to 
rejoin the labor force. And these things have occurred for a 
multitude of reasons that go far beyond, you know, what my 
colleagues want to talk about, which is what they perceive to 
be discrimination against women.
    My question for you specifically is, do you believe that 
pay gaps as they exist are based solely on sex discrimination 
or do you believe that there are other nuances that impact 
this?
    Ms. Onwuka. Congressman, thank you for your question. I 
absolutely do believe that the pay gap is driven by other 
factors. A number of controllable factors when you control for 
those things, everything from your occupation. We've heard 
about, you know, women not earning--dominating certain sectors 
and still not out earning men in those sectors that they 
dominate. Well, when you look at the distribution of where 
women are in those sectors in an occupation, for example, when 
you look at nursing, for example, male nurses earn more than 18 
percent than female nurses. Why? Well, not surprisingly, they 
are in the better, higher paying specialties, they're working 
longer hours.
    So, when we talk about all of these different factors--
hours, occupation, time out of the work force--they all layer 
together to contribute to that pay gap. And I hope that comes 
across in today's discussion and it's not just all about the 
gender and even racial discrimination.
    Mr. Donalds. Let me ask you a followup question to that. Do 
you think that any of the new entitlements that, you know, were 
put into whatever that bill is we passed two weeks ago, the 
coronavirus bill, whatever they want to call it, do you think 
that any of those new entitlements are actually, you know, ease 
these burdens or do you think it's just going to paper over the 
burdens that already exist and the disparities that already 
exist based upon the other factors that you cited?
    Ms. Onwuka. Well, I think certain people will absolutely 
feel a little bit more in their pockets if they are already 
receiving those entitlements. But when you're talking about 
individuals who, you know, are not direct beneficiaries, they 
want to get back to work. They're not interested in 
necessarily, you know, becoming dependent on government 
entitlements. They're looking for, you know, an open economy in 
their state and their city that allows them to regain the work 
force, whether you're talking about a service--a person in the 
service industry, whether you're talking about someone in the 
hotel industry.
    While we appreciate direct targeted aid, which it's 
questionable if the recent package was, but that's temporary. 
What we need is a robust economy that generates opportunities 
of different kinds that meets the unique interest and 
situations of certain people. Not everybody wants to work a 40-
hour week. Not everyone wants to work in a physical location. 
Some people want to work from home. Some people don't even want 
to be employees, and they're not interested in unionization 
either. So, I think we need an economy that generates those 
types of opportunities, a breadth of them.
    Mr. Donalds. Thank you for that.
    In the rest of my time what I would state is that, like I 
said, the pandemic has been something that's been highly 
impactful to all people in our country, all socioeconomic 
levels of our country. But let's be very clear: If the local 
school is closed and your kids are school age, like my children 
are, it makes a major impact into what happens into the working 
lives of the families that have to care for those kids. I've 
heard that from members of my own community, my constituency, 
where it's real issues about can the kids go back to school. 
That has major impacts.
    I would also say that what we're also witnessing, as 
destructive as the pandemic has been to the economic lives of 
so many Americans, including women, especially women of color, 
is that the economy's also transforming. We are seeing that a 
lot of companies are now deciding to go to hybrid schedules and 
hybrid calendars.
    We are seeing that there are companies who are trying to 
think about are they actually going to continue having office 
hours for 40 hours a week or more, because they've realized 
that they've not missed a beat through the pandemic in the 
white collar professions. And so I think what we're going to 
see through the free market is a move that gives more people 
the flexibility to continue to grow--to go up the economic 
ladder in spite of the family decisions that exist, in spite of 
some of the cultural issues and community issues that do exist.
    So, with that, I'll yield back the rest of my time. But I 
will say I'm not sure that Federal legislation is necessary to 
do what the free market is going to take care of on its own, 
like it typically does.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Vermont, Mr. Welch, is now recognized. 
Mr. Welch.
    Mr. Welch. Thank you very much. I appreciate it.
    First of all, I want to really thank the witnesses, who I 
think have been incredibly helpful in their clarity on this 
really important issue. And it seems to me there's really two 
things that have come out here. One is that there is unequal 
pay, obviously. And No. 2, that it's not just about a choice, 
and it's not even just about employers who want to pay as low 
as they can. That's not necessarily the case. It's a question 
of what the choices are that are realistically available to 
women who bear the major responsibility of childcare and home 
care.
    And I want to ask Dr. Mason whether--in Vermont, we have 91 
percent--we have the closest men and women getting equal pay. 
It's 91 percent for women, and that adds up to $5,000 a year on 
our average wages, which is real money. But in the pandemic, 
we've had many more women who have left the labor force and not 
been able to come back, and particularly women who have 
childcare responsibilities with children.
    So, what I'd like you to do is answer some of these 
questions that have been raised, mostly from my Republican 
colleagues, about the choice and this question of how is it 
possible for a person to have choice if their options are 
limited because of inadequate day care or family leave or other 
things that should be, in my view, governmental policies?
    Dr. Mason?
    Ms. Mason. Yes. So, I think you're absolutely right, 
Congressman Welch. These are constrained choices. They're not 
true choices. They are limited choices that women have.
    During the pandemic--I am, you know, a single mom. I work 
40 to 50 hours a week, and also responsible for home schooling 
my children. I feel very fortunate to be able to work from 
home----
    Mr. Welch. By the way, interrupt, God bless you that you've 
managed to do that. You have got a job.
    Ms. Mason. You know, but the truth of the matter is, is 
that this burden, this--and I don't want to call it a burden, 
but this experience right now in the pandemic, it is the 
experience that many women have been, you know, juggling before 
the pandemic, and
    [inaudible] responsibility has only increased during the 
pandemic.
    And so, again, women spend 30 percent more care--you know, 
have 30 percent more care-taking responsibilities in their 
families compared to men. And so, when schools close, day cares 
close, the expectation is that women will take on that 
additional work and burden. And because of the pay gap, when 
families are making decisions about who should leave and who 
should stay in the work force, if they have a two-person income 
household, it's the person who makes the least. But that's not 
fair. It's a choice that women and families shouldn't have to 
make.
    Mr. Welch. Thank you. Thank you. You know, in Vermont, we 
are having a real debate in the state legislature about paid 
family leave, and one of the concerns that's raised by business 
is who's going to pay for it. I think that's a legitimate 
concern. But the private market is not going to pay for it, and 
that seems to be a theme on some of my colleagues on the other 
side that leave this to the market, but, in fact, the market 
doesn't pay for elementary education.
    You know, we've made certain decisions as a society that 
should be socialized about provision, public education. 
Obviously, the defense of our country.
    Is paid family leave something--I'll ask Ms. Poo--that 
should, in fact, be socialized, if we took a step toward that 
with the provisions that were in the American rescue package?
    Ms. Poo. I believe absolutely it should. I am a believer 
that when the market can solve a problem, it should. And when 
it can't, the government--that is the role of government. And 
when we have collective shared needs that are about the 
fundamental health and well-being of society and our families, 
we have to ensure that these challenges get solved.
    And all of us working have families, and most children are 
growing up in households--70 percent of kids in this country 
are growing up in households where all the adults in the 
household work outside of the home. So, in that instance, we 
need to invest as a government in our caregiving programs and 
policies in a totally different way for the 21st century.
    Mr. Welch. Thank you very much. My time is expired.
    I yield back.
    Chairwoman Maloney. The gentleman yields back.
    The gentleman from Georgia, Mr. Johnson, is now recognized. 
Mr. Johnson.
    Mr. Johnson. I thank the chair for holding this hearing. 
And I appreciate the testimony from today's witnesses.
    To quote sociologist Jessica Calarco, quote: ``Other 
countries have social safety nets. The U.S. has women,'' end 
quote.
    Here on Equal Pay Day, I'm particularly concerned about the 
consequences of the gender pay gap for working mothers and 
families and the continued discrimination against women who are 
also mothers.
    Now, Ms. Onwuka, I appreciate your testimony today. You've 
stated that mothers make less than fathers because mothers 
favor time off, whereas, men don't take time off. And that time 
off makes women happy and feel a sense of fulfillment, and men 
get their kicks by doing overtime, pretty much is what you're 
saying.
    Ms. Jabola-Carolus, can you respond to that notion, please?
    Well, if Ms. Carolus is not available, how about you----
    Ms. Jabola-Carolus. I'm here. Would you----
    Mr. Johnson. OK, please.
    Ms. Jabola-Carolus. For one clarification, would you just 
repeat that part about her point?
    Mr. Johnson. Well, yes. You making me spend my time now.
    Ms. Jabola-Carolus. Sorry.
    Mr. Johnson. All right. But, look, Ms. Onwuka is saying 
that women like to take time off because, you know, it's a 
matter of choice for them and they prefer to take care of their 
children; whereas, husbands tend to not take time off because 
they want to make some overtime.
    What is your response to that?
    Ms. Jabola-Carolus. Well, choice requires power, and women 
are under an incredible amount of constraint to fulfill their 
gender norm role to serve the family, to sacrifice themselves, 
and oftentimes they're not making as much money anyway compared 
to if they have a male partner in the relationship. And so, 
it's just logical, it's rational under these constraints to do 
that. It's not because it's a personal preference or it's 
advantageous necessarily.
    Mr. Johnson. So, all of that nonsense about fulfillment and 
sense of happiness and having to do this, you would not agree 
with that, correct?
    Ms. Jabola-Carolus. I would not agree with it as----
    Mr. Johnson. OK. And let me move to my next person. Thank 
you.
    Ms. Jabola-Carolus. Thank you.
    Mr. Johnson. Ms. Onwuka, do you know who Lilly Ledbetter 
is?
    Ms. Onwuka. Congressman, yes. And I would like to respond 
to your mischaracterization, if possible, of what I said.
    Mr. Johnson. And you're familiar with the fact that Ms. 
Lilly Ledbetter was working at a Goodyear plant down in 
Alabama. She was an area supervisor. There were 15 males doing 
the same job as she. She had more seniority than anybody, and 
she made thousands of dollars less than what her male 
counterparts were making.
    Do you think that's fair?
    Ms. Onwuka. Sir, I'm not going to go back and talk about 
Lilly Ledbetter, because I understand there is Federal law----
    Mr. Johnson. OK. Well, then let me ask you this question. 
Do you think that there should be Federal law that guarantees 
that women performing the same work as men receive equal pay as 
men?
    Ms. Onwuka. I believe we have that law, those laws on the 
books, sir.
    Mr. Johnson. Well, why would this happen to Ms. Lilly 
Ledbetter?
    Ms. Onwuka. Because, in practice, different companies do 
different things, which----
    Mr. Johnson. Was it the free markets that caused that to 
happen or was it government that caused Ms. Lilly Ledbetter to 
not be paid equal pay for equal work?
    Ms. Onwuka. Well, you know, it's unfortunate that there are 
people who harbor discrimination potentially, and thank 
goodness that we have the law that provides us with means of 
redress to adjudicate those issues.
    And, by the way, some of the data that I was referring to 
earlier, sir--would you allow me to respond?
    Mr. Johnson. Shouldn't there be Federal laws--well, yes, 
I'd like for you to respond to my question. Shouldn't there be 
Federal laws to protect women to ensure that they receive equal 
pay for equal work?
    Ms. Onwuka. And, sir, I've responded that we have Federal 
law that ensures that you cannot be paid differently based on 
gender discrimination.
    Mr. Johnson. Why does this keep happening then?
    Ms. Onwuka. Please repeat your question.
    Mr. Johnson. Why does this keep happening?
    Ms. Onwuka. Well, you know, I think we need to empower 
women, No. 1, to seek redress when they are not compensated the 
way that they should be. We have an entire Federal agency that 
does that. And then we also need to talk about education. And I 
appreciate and agree with a lot of my colleagues that, yes, 
education is willful for many women, particularly kids that 
look like you and me. And that's why I advocate for school 
choice, so that they can get out of the failing public school 
system and into maybe other options that would give them an 
advantage and an opportunity and expand their horizons and open 
them to different ways of earning greater potential.
    Mr. Johnson. So, we should let the free markets take over 
our public-school system.
    And with that, I yield back. Thank you.
    Chairwoman Maloney. The gentleman yields back.
    The gentlelady from California, Ms. Porter, is recognized 
for five minutes.
    Ms. Porter. Thank you very much.
    Dr. Mason, I wanted to talk to you about policies that harm 
women, specifically that hurt single mothers. The American 
Rescue Plan expands the child tax credit, correct?
    Ms. Mason. Yes, that is correct.
    Ms. Porter. And how much does it increase the credit by?
    Ms. Mason. It increases the credit by $3,600 for children 
under the age of 6 and $3,000 for others, for other ages.
    Ms. Porter. Yes. And it would lift about 4.1 million 
children above the poverty line, cutting the number of children 
in poverty by more than 40 percent. That's a conservative 
estimate. Is that right?
    Ms. Mason. That is right.
    Ms. Porter. But the tax credit, the child tax credit, has 
two different income cutoffs, right? One for married couples 
and one for heads of household.
    Ms. Mason. Uh-huh. Right.
    Ms. Porter. And who typically files as heads of households? 
How do single parents of young children typically file? What is 
their tax status?
    Ms. Mason. Single mothers have--single mothers are more 
likely to file as heads of households.
    Ms. Porter. Heads of household?
    Ms. Mason. Yes.
    Ms. Porter. Heads of households have a different cutoff for 
the child tax credit than married couples who have children?
    Ms. Mason. Yes. That's right.
    Ms. Porter. So, I want to break this down. A single parent 
making more than $112,500 a year starts to lose the child tax 
credit; whereas, a child in a married couple doesn't start to 
lose that credit until their combined income is more than 
$150,000. Is that correct?
    Ms. Mason. That is correct.
    Ms. Porter. So, to quote a law review article, Beyond Head 
of Household: Rethinking the Taxation of Single Parents, this 
discrepancy--quote: This discrepancy means that unmarried 
parents with the same income receive a smaller credit per child 
than do married parents with income in the same range.
    Is the cost of food for the single parent's child any less? 
Do children in single parent families eat less?
    Ms. Mason. No.
    Ms. Porter. How about the cost of school supplies, 
uniforms, books, is there a discount for single parents?
    Ms. Mason. No. I wish there was, in fact.
    Ms. Porter. Me too. And most importantly, would the cost of 
childcare be any less for the child of the single parent?
    Ms. Mason. No. In fact, it consumes more of single parent's 
income.
    Ms. Porter. Because they don't have anybody else to take 
care of the child. If they were going to work, they need to 
have childcare that covers the full hours that they're working. 
So, and yet the tax credit treats that family differently. I'd 
like to call this the single parent penalty, but it's really 
the child in a single parent household penalty. The person hurt 
here is the child. And because we penalize single parents, we 
penalize their children. I think this is an outdated backward 
policy that needs to change.
    Dr. Mason, one final question, would fixing this penalty, 
bringing these two different kinds of families, both with 
children and the cost of raising a child born equally among 
them, would it help women and children? Would it help bring 
women into the work force? How would it help support our 
economic recovery, if it would?
    Ms. Mason. So, first of all, there's no reason for this 
discrepancy in terms of phasing out for single parents. And it 
would definitely help go a long way toward helping us to 
rebuild our economy, supporting those women who have been most 
disproportionally impacted in this moment. Women who are 
primary wage earners in their families. It would definitely 
help to bring more women back into the work force.
    And I have to point out that this is direct money into the 
pockets of working women and families, and what we have to know 
is since 1996, the social safety net has all but disappeared, 
and less than three percent of families receive any kind of 
cash assistance. So, this is a moment where we can't afford to 
be making these arbitrary cuts and decisions about who should 
be receiving support and care.
    Ms. Porter. Absolutely. I agree. I think the time to get 
rid of this differential treatment for children depending on 
what kind of family they live in is long overdue. The result 
here is we're penalizing children rather than helping children 
in all families equally. So, I strongly support removing the 
single parent penalty and making sure that we're helping every 
single child get that benefit.
    You know, it's interesting, Dr. Mason, I have asked the 
Ways and Means Committee, I've asked the Joint Committee on 
Taxation, I've asked on the Senate Finance side, I've--someone 
put this question to Jared Bernstein at the Council of Economic 
Advisers, and not one person has been able to give me a 
justification for why we discriminate against children in 
single-family households this way. And I think it starts, for 
me, to be reminiscent of longstanding efforts in the tax policy 
to control families and define what is a good and worthy 
family.
    With that, I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentlewoman from California, Ms. Speier, is recognized 
for five minutes.
    Ms. Speier. Madam Chair, thank you so much for holding this 
hearing today on Equal Pay Day.
    You know, there's that old adage, you can put lipstick on a 
pig, but it's still a pig. And I think the script that my 
colleagues on the other side of the aisle are reading from is 
one that is, in all respects, probably laughable. Because for 
those of us who have been single parents, as Ms. Porter has 
just pointed out, there is great discrepancy in the law as to 
how those children are treated.
    Let me ask Ms. Onwuka, who are the biggest donors to--I 
presume you're from a nonprofit. Is that correct?
    Ms. Onwuka. Yes, Congresswoman.
    Ms. Speier. And who are your biggest donors to your 
nonprofit?
    Ms. Onwuka. I actually don't know. I just know that we are 
supported by many Americans across the country who believe in 
what we're talking about and what we're fighting for.
    Ms. Speier. You're the director, so how would you not know?
    Ms. Onwuka. I'm the director of the Center for Economic 
Opportunity, which is going to be launching within the next two 
weeks, but I'm not the executive or the president of this 
organization.
    Ms. Speier. And who is?
    Ms. Onwuka. I think that was misstated earlier in the 
introductions.
    Ms. Speier. And who is?
    Ms. Onwuka. That's Carrie Lukas.
    Ms. Speier. OK. All right. I think it's really important 
for us to know where the funding comes from those who speak to 
us on both sides of the aisle.
    Let me move forward. My colleagues across the aisle like to 
argue that the gender wage gap calculated by data from the 
Census Bureau is a myth or a fairy tale concocted by the 
liberal media. They argue that the $10,000 difference between 
men's and women's earnings is due to women's choices. I mean, 
it's so offensive to me to hear that, as if being pushed out of 
your job because of a lack of paid leave or reasonable 
pregnancy accommodation or sexual harassment is somehow a 
meaningful choice.
    I'd like to remind my colleagues that the wage gap persists 
regardless of industry, occupation, or educational level. In 
fact, across all industries, women are paid less than men. 
Women are even paid less than men with lower levels of 
education. Among full-time, year-round workers, women with 
associate degrees are paid less than men with high school 
diplomas, and women with master's degrees are paid less than 
men with bachelor's degrees.
    One prominent study that looked at the causes of wage gap 
examined factors such as occupation, industry, education, union 
status, region, and race found that 38 percent of the wage gap 
was still unexplained and could be attributed to 
discrimination. That's why the Paycheck Fairness Act is 
something that we are supportive, because the Equal Pay Act has 
no teeth. Ask the late Ruth Bader Ginsburg about that.
    Dr. Mason and Ms. Poo, what impacts does a lack of paid 
family leave and affordable childcare have on the gender wage 
gap? Is it fair to blame the wage gap on women's choices?
    Ms. Poo. Well, I will say that two-thirds of all minimum 
wage workers are women, and they do not have flexibility. They 
do not even have the ability to take time off from work to get 
a vaccine in a pandemic. So, this is not about a lot of choices 
that women have. And I have not met any women in my 25 years of 
organizing women in the low-wage economy who would say that 
working a minimum wage job with no safety net, benefits, paid 
time off, or access to even job security was a choice of 
theirs. So, I will say that.
    And I will say that we have this incredible opportunity in 
this moment as we've seen what has happened to women in this 
pandemic absent a real safety net and a real care 
infrastructure in this country, the incredible dangers of it, 
to women and to children and all of us and the economy. We have 
this incredible opportunity to transform that, to invest boldly 
in the ability of families to work and care for their kids at 
the same time, and we have to do that because 60 percent of the 
American work force earns less than $50,000 per year.
    The average cost of childcare is $9,000 per year and the 
average cost of a private room in a nursing home is more than 
$90,000 per year. The number----
    Ms. Speier. Thank you. I'd like to make sure Ms. Mason has 
a chance to respond as well. Thank you.
    Ms. Mason. I would like to echo everything that Ai-jen Poo 
just said and said that this is the moment for us to really 
think about a robust care infrastructure that is able to meet 
the needs of family. As we mentioned earlier in the hearing, 
families and women can spend up to 30 percent or more of their 
income on care, and there is an absolute need for paid sick 
leave, both at the Federal and state level. There is a role for 
the private sector to play in the absence of these Federal and 
state regulation and laws. So, there's so much work to be done.
    And, again, we have done a really great job at articulating 
the pay gap, and I think we have a number of things on the 
table and in the legislatures to help us to close it.
    Ms. Speier. Thank you. My time's expired.
    I yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentlelady from Illinois, Ms. Kelly, is now recognized. 
Ms. Kelly.
    Ms. Kelly. Thank you, Madam Chair.
    Gender inequality is not only a pressing moral and social 
issue, but also, as you know, a critical economic challenge. If 
women who account for half the country's working age population 
do not achieve their full economic potential, the Nation's 
economy will suffer. A McKinsey Global Institute report finds 
that $12 trillion could be added to global GDP by 2025 by 
advancing women's equality. The public, private, and social 
sectors will all need to act to close gender gaps and work in 
society.
    In my hometown, a report prepared by the Chicago Foundation 
for Women found that if Chicago were to
    [inaudible] make a best in class standards of gender 
parity, it would grow the regions gross domestic product by 58 
billion.
    [inaudible] Out of 25 people that worked out of a place, I 
had the most experience and the most education and I got paid 
the least. So, I have experienced this myself.
    So, to begin to close the gender wage gap, women need 
updated, comprehensive equal pay legislation, such as the 
Paycheck Fairness Act, that will strengthen existing protection
    [inaudible] policies are also essential to truly
    [inaudible] and multi-faceted gender-based wage gap so that 
all women proportionally
    [inaudible] assume much of the caregiving responsibilities 
in their family are not unfairly disadvantaged, but taking time 
to address their
    [inaudible] needs. Just like right now, you know, instead 
of saying
    [inaudible]
    Chairwoman Maloney. We're having some technical 
difficulties with Ms. Kelly. We can come back to her.
    The gentleman from Maryland is recognized, Mr. Sarbanes, 
while we work on her technicality problems. Mr. Sarbanes.
    Mr. Sarbanes. Yes. Thank you very much, Madam Chair. I want 
to thank the panelists who are joining us today.
    Throughout this coronavirus pandemic, as we know, we've 
been relying extremely heavily on frontline workers to help us 
keep food on our tables, to continue to provide essential 
medical care for ourselves, for our loved ones, and to maintain 
essential services in the communities. So, we owe a huge debt 
of gratitude to grocery store clerks, hospital workers, long-
term care aides, other essential workers that have helped to 
guide us through this pandemic.
    We know that women are overrepresented as a share of 
frontline employees. The statistics are pretty significant. 
Two-thirds of grocery store workers are female, as are 8 in 10 
retail workers at other essential businesses. Women comprise 
three-quarters of hospital workers and more than 80 percent of 
long-term care staff.
    Even as they've been asked to shoulder the risks and 
burdens associated with the pandemic, the majority of frontline 
workers have continued to be paid low wages and are granted few 
workplace protections.
    Dr. Mason, are women on the front lines of the pandemic 
earning less than their male counterparts? Can you speak to 
that?
    Ms. Mason. So, are women earning less than men in these 
essential jobs, as you call them? So, you just stated that 
women are overrepresented in the sector, but even in 
instances--in some instances where women are overrepresented, 
men still out earn women in these sectors. What's really 
important to know is that, not only are these lower wage, lower 
paying jobs, but these are also jobs with few benefits, no time 
off, no healthcare, and so it really exacerbated the economic 
precarity that women were facing, you know, when the pandemic 
hit.
    And so, when we look across who's been most impacted in 
this moment, it is these lower wage workers and women of color 
specifically. And, again, when we think about recovery, it's 
really important to target our policy strategies, even our 
infrastructure bills around those who've been most impacted in 
this moment. And, again, it's women and women of color.
    Mr. Sarbanes. I appreciate that. That gets to the 
structural dimension of this that was being discussed by some 
of my colleagues earlier. It seems that however you want to 
slice or dice or frame the work force, you will discover that 
there is this inequity in pay that cannot be justified by any 
particular lens you would put on it, other than the fact that 
people are not getting equal pay for equal work.
    And you touched on the fact that frontline workers are less 
likely to have access to paid sick or family leave. They're 
less likely to be able to telework. They have fewer workplace 
protections. So, you're layering on top of this wage gap and 
pay gap all of these other additional burdens, which often 
disproportionately impact women in the work force, which 
creates that significant burden.
    Ms. Jabola-Carolus, as your report notes, many public 
sector workers are women of color. Can you speak briefly about 
how the pandemic has impacted the health and economic security 
of these women? And then as we recover from the pandemic, how 
can we best support women working in both the public and 
private sectors?
    Obviously, a lot of attention to workers in certain jobs 
because of the pandemic, the test for the Nation as public 
policymakers is whether we learn those lessons, carry them 
forward, and build a different kind of economy on the other 
side of the pandemic. So, if you could speak to that briefly, 
I'd appreciate it.
    Ms. Jabola-Carolus. Thank you. You're absolutely correct 
that certain sectors were in overdrive, particularly the public 
sector, when we were characterizing, you know, the economic 
outlook as a shutdown. And in the public sector, it's really 
important for government to lead and be an example of what 
these rights should look like, but we've still seen a very 
punishing impact on women. You know, there have been telework 
policies that are overtly sexist, that prohibit caregiving and 
telework that caused confusion in Hawaii and needed to be 
corrected in quick time. And that's one of the things that 
we've seen is this hesitancy to go against productivity and use 
excuses like productivity and liability to not create a more 
flexible structure in government at the local level.
    So, we're seeking those things currently in Hawaii, but, 
absolutely, public sector workers have not been exempt from 
this, and particularly women have been suffering.
    Mr. Sarbanes. Thank you. I yield back.
    Chairwoman Maloney. Ms. Kelly, have you corrected your 
audio now? Ms. Kelly? There appears to be difficulty.
    We are now going to the gentlelady from New York. Ms. 
Ocasio-Cortez is now recognized.
    Ms. Kelly. Do I sound better? It's hard for me to tell.
    Ms. Ocasio-Cortez. Are we through? Are we going back to Ms. 
Kelly? OK.
    Chairwoman Maloney. Ms. Ocasio-Cortez, you're now 
recognized.
    Ms. Ocasio-Cortez. Thank you so much, Madam Chairwoman.
    Ms. Jabola-Carolus, I was wondering if we could dive into a 
little bit a lot of the unrecognized but very real work that's 
been happening, especially during the pandemic, especially 
that's been borne by women and caregivers in general. I was 
wondering if you could kind of talk to us a little bit about 
that. What have been some of the expansions and increases in 
work that women have increasingly been bearing and creating and 
undergoing throughout the pandemic? How is it being undervalued 
and underrecognized, and also, how is it critical to us keeping 
our economy going? And I was wondering if you could kind of set 
the stage for us to kind of discuss about how we are not 
recognizing some of the critical work that's happening in our 
economy that's critical to its functioning.
    Ms. Jabola-Carolus. Thank you for that question. Women are 
absolutely the scaffold of the economy, and mothers in 
particular. You know, we are born into a society that is 
profoundly patriarchal, and so motherhood is almost totally 
invisible. I didn't even notice it until it happened to me, 
quite frankly. And the amount of work, the grueling work that 
is shrouded as love is painful to experience because it is so 
demanding and requires so much sacrifice. And during the COVID-
19 pandemic, you know, we've seen this being put on women, and 
because women already make lower wages, you know, it's logical 
for them to be the one to take the hit and exit the workplace. 
I ask myself every day whether I should quit my job, and I am 
the executive director of the Commission on Women.
    So, rather than throw statistics at you, I would just share 
what we've been hearing from our community, which is just 
overwhelming mental health stress from women who are taking on 
these burdens. The exodus from the workplace is true, even 
though it's being denied and cast as voluntary. And we will see 
the impact of this in the data shortly, I'm sure, but that is 
what I can share with you from Hawaii.
    Ms. Ocasio-Cortez. First of all, thank you. Thank you for 
sharing that.
    And one of the questions that I've kind of been asking is, 
how do we better recognize this work through policy, compensate 
for it? And do programs like Medicare for All and guaranteed 
childcare, healthcare, et cetera, does this go some of the way 
in helping recognize this work, alleviate for it? And also, 
what are some real policy initiatives that we should be looking 
at to actually formally recognize, potentially compensate in 
one way or another for this kind of work, and make being a 
mother a realistic possibility that doesn't come at the expense 
of women's well-being mentally or physically in a 
disproportionate way?
    Ms. Jabola-Carolus. The United States has a lot of catch-up 
to do. There are countries around the world that provide 
pensions for housewives. These are the things that we should 
absolutely make fundamental as part of the recovery and before, 
right. But for me, I think, and for our plan, it was really 
important to go beyond just compensation. We really want equal 
leisure time. We want that labor to be able to be just love. We 
want shared responsibilities rather than it just having to be 
on us, so a paycheck will not be enough for that.
    So, I think that, you know, Medicare for All, Medicaid for 
all, childcare, universal childcare, no means testing, just 
free and available to everyone, these types of things will 
allow women to really be free from the demands that are put on 
them to sacrifice themselves for our economy.
    Ms. Ocasio-Cortez. And you bring up a point that I think is 
so important, which is leisure time. You know, I think in our 
society, especially in U.S., an American society, it's almost 
seen as sinful. And I was wondering if you could expound on 
that and how this is actually important, critical, and element 
that should be afforded to all of us. I was wondering if you 
could expound on that aspect of things a little bit because 
it's so rarely named and even discussed in public policy.
    Ms. Jabola-Carolus. Yes. And I think it's really important 
in terms of reordering the economy around, you know, endless 
growth and consumption and extraction is reducing work time, 
valuing the time that we have to be in relationship with each 
other. And so if we can move in that direction, which is 
already in vogue in other countries to reduce work hours, those 
things should just be fundamental to us because, you know, if 
the economy is not creating well-being, what is the 
justification for it anyway.
    Ms. Ocasio-Cortez. Thank you.
    Ms. Jabola-Carolus. Thank you.
    Chairwoman Maloney. The gentlelady yields back.
    The gentlewoman from Michigan, Mrs. Lawrence, is now 
recognized. Mrs. Lawrence.
    Mrs. Lawrence. Thank you so much, Madam Chair, and I want 
to thank you for having this very timely and important 
discussion.
    As the co-chair of the Democratic Women's committee, we 
have been working very hard on supporting bills that will bring 
our economy back, and it's critical for us that all women have 
the opportunity to thrive. For example, the Paycheck Fairness 
Act takes us closer to closing the gender pay gap, and the 
FAMILY Act established a comprehensive national family leave 
program, and the Child Care for Working Families increased 
affordable childcare.
    Dr. Mason, how can these pieces of legislation ensure that 
when we bring this economy back, that it's an equitable, 
economic recovery for women, and particularly women of color? 
And while I'm there, I also want to ask you about the 
generational impact of what we do in America by having this big 
pay gap for women and Black women, particularly, generation 
after generation? Thank you.
    Ms. Mason. So, these bundle of policies that you just 
mentioned and the ones like the Domestic Workers Bill of Rights 
and, you know, thinking about universal childcare, these bundle 
policies are really important to our short-term recovery but 
also women's long-term economic security, well-being, and 
stability.
    For far too long, women have been struggling to make ends 
meet. These systems have been broken for so long, and so we 
have an opportunity, again, once-in-a-generation opportunity, 
at least not seen in my lifetime, to create and build a more 
equitable economy that works for everyone, not just business 
owners and entrepreneurs, but women and families, women workers 
who are the backbones of the economy, women are the economy.
    And so recognizing that for women of color, and Black women 
specifically, making sure that, you know, the ways in which 
they're overrepresented in the service sector and lower wage 
jobs, women of color, in general, Black women specifically, and 
so making sure that those jobs are quality jobs, jobs that have 
security, benefits, and so that, you know, women are able to 
take care of their families. And, again, righting some of the 
historic wrongs, like home ownership, looking at other things 
that we know will make the difference in women's long-term 
economic security.
    Mrs. Lawrence. Thank you.
    And, Ms. Carolus, if you could comment on the generational 
impact of this crisis that I feel we have in America with 
gender inequality.
    Ms. Jabola-Carolus. Thank you for the question. Well, I'm 
coming from Hawaii into this conversation, and gender equality 
was forced from women by the United States, and that's an 
important history that we need to remember and need to resolve. 
And it's our responsibility to use that as a frame. And I think 
that if we are not able to reallocate power to women and leave 
them to the devices of, you know, this recovery, then that will 
be less power for each subsequent generation.
    And so, it's really leveraging this moment to create these 
structural changes that we've been waiting for for so long and 
fighting for for so long and advocating for for so long, and so 
this is the moment to do that. We can't even risk entertaining 
what the consequences will be down the line.
    Mrs. Lawrence. I just want to say thank you again to our 
chair. And this is an opportunity that we have where the 
intersection of generational wealth, generational opportunities 
that we can make a difference. I want to thank everyone that's 
here, and we need to continue to keep our voices raised.
    And thank you so much. And I'll yield back.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Kentucky, Mr. Comer, is now recognized. 
Mr. Comer.
    Mr. Comer. Thank you, Madam Chair.
    As I said in my opening statement, women were making huge 
gains in the American work force prior to the pandemic. In 
January 2020, for the second time in history, women outnumbered 
men in the U.S. paid work force. Women outnumbered men in 
earning college degrees. But when the pandemic hit, the Nation 
shut down, women have been most adversely affected.
    Ms. Onwuka, can you explain why women have lost more jobs 
than men since last February?
    Ms. Onwuka. Thank you, Ranking Member. Yes. Women tend to 
be aggregated in the service industry, in the leisure--in any 
areas that have not surprisingly been hit tremendously hard by 
coronavirus closures--restaurants, bars, working in the travel 
industry. So, when you are a hotel worker and there are no 
travelers, then you are out of work. And so, it's not 
surprising that we've seen over 2 million, going on 3 million, 
women leave the work force, and particularly even women who are 
moms who have children under 18 years old. You've seen them 
leave the work force, unfortunately, because for many of them, 
they have to balance, you know, virtual school and ensuring 
that their kids' education and their household chores, you 
know, everything is taken care of. And it's unfortunate, but 
I'm hopeful that as the economies, particularly the state and 
local levels continue to reopen, that you'll see women begin to 
reenter the work force.
    Mr. Comer. That leads me to my next question. What can we 
do in Congress to ensure that women reenter the work force as 
quickly as possible?
    Ms. Onwuka. Well, there are some things that you can do and 
not do. One is not in pass legislation that would, 
unfortunately, remove flexible work opportunities for women. 
There is a bill pending, it's been passed by the House, 
unfortunately, the Protecting the Right to Organize Act, or the 
PRO Act, that has tucked in there a piece of remeasure that 
would inevitably reclassify millions of workers across the 
country from being independent contractors to employees.
    We've seen in California some more legislation passed and 
it, unfortunately, hit many women who are choosing to be 
independent contractors, small business owners. They're not 
employees, not W-2 employees, but, you know, they're 1099 
workers and they enjoy that flexibility. And so I think at the 
Federal level, we've got to be careful about legislation that 
would make it difficult for, you know, workers who may be in 
those industries that are going to start to reopen to be able 
to have that independent work/contract work available to them.
    Mr. Comer. That's a great point. I couldn't agree more. 
This committee, the Republican members anyway on this 
committee, have been very vocal about reopening our schools. 
And one of the things that I would like to point out in this 
hearing is that, obviously, when you have virtual learning, 
it's not the same quality as the in-person learning. And could 
you touch on the fact that, you know, we've affected, in my 
opinion, future female leaders, because our schools have been 
shut down over the past year, especially in the bigger cities 
where the teachers' unions are more prevalent and more adverse 
to keeping the schools shut down? Could you touch upon that?
    Ms. Onwuka. Absolutely. I mean, I think there is a dearth 
of data that looks at the educational attainment levels of 
young-of children, how they're doing because of the coronavirus 
pandemic, being out of schools. And it's not surprisingly that 
you have many American kids who have fallen behind, and for 
Black and Brown children, they have fallen far behind, and it's 
going to be difficult for them to catch up.
    So, I think it is important that American children are able 
to be back in the classroom. I hesitate to say that virtual 
learning is all bad, because I think it's how different school 
systems have implemented virtual learning and virtual education 
that has made some of the difference. I mean, there's certainly 
been online schools that have been tremendously successful. So, 
you know, I think we want to ensure that our kids are learning 
in the best environments possible. And when you look at 
measures, not just about their educational attainment, but also 
their mental and emotional health, we see that a lot of 
students are struggling.
    And so, I do think it's important that our lawmakers make 
it a priority and that our school systems make it a priority to 
reopen, to reopen safely, and they can do so. We've seen it in 
the private sector, and we've seen it in other countries.
    Mr. Comer. Absolutely. Just a couple more things real 
quick. My time's running out. There's been a lot of discussion 
today, obviously, about how achieving equal salaries between 
men and women will prove we've been successful in closing the 
pay gap. Do you think that's true?
    Ms. Onwuka. I don't. I mean, I think from a broader 
perspective, I'm about ensuring everyone has equal 
opportunities, not just equal--not just looking at it from a 
wage gap or raw data perspective, because I think that we want 
to ensure every woman has the opportunities, has the choices 
that are best for them, and those low-earning women are able to 
move up the economic scale and economic ladder and I don't 
think there's been enough discussion about how we do that. Not 
just supporting them at a level of basic needs, but how do we 
give people a pathway forward and a path up the economic ladder 
to really achieve their American dream.
    Mr. Comer. And, Madam Chair, last question, because I think 
this is very important to the purpose of this hearing.
    What's the best way to gauge workplace equity--or workplace 
equality rather? Yes, sorry.
    Ms. Onwuka. I mean, I think----
    Mr. Comer. How do we gauge that?
    Ms. Onwuka. I think you have, you know, research agencies 
or institutes like Pew that looks at--it actually asks people, 
you know, how are they doing in the workplace? Are they getting 
the salaries or are they getting the flexibility, whatever it 
is that they value most, are they able to achieve that? And as 
we measure that, I think that tells us more about the health of 
the American worker than just a raw average, you know, gap that 
is not even apples-to-apples comparison.
    Mr. Comer. Thank you very much, Madam Chair. I yield back.
    Chairwoman Maloney. And the gentleman from California, Mr. 
DeSaulnier, is now recognized. Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Madam Chair. Thank you for this 
very, very important hearing.
    Dr. Mason, I wanted to ask you two questions, two areas of 
questions. In this historic period of, unfortunately, 
inequality where access to capital and savings is so 
disproportionate, it's more disproportionate than any other 
time in our history when you measure the percentage of capital 
in our GDP versus wages.
    So, we know from your work and others that this inequality 
is particularly difficult for women and women of color. I think 
your research says that the median savings for a single White 
American woman is $15,000; for a Hispanic/Latino single woman, 
it's $200; and for an African-American single woman, it's a 
hundred dollars.
    So, we know wages, if you don't have enough in wages in 
addition to high cost areas, like the one I live in in San 
Francisco where transportation, housing costs are so--such a 
challenge that all of this compresses the opportunity.
    So, that's one response that I'd like you to tell me about 
is this problem with getting access to capital, particularly in 
a country where access to capital, if you have a lot of money, 
America's not a bad place to live right now. And the Trump tax 
cuts, 90 percent of the benefit of that went to people who make 
over $500,000 a year who are predominantly White. So, there's 
that.
    And the second one that always troubles me is, I don't 
think Americans realize with the advent of two incomes in the 
work force from households, and America was a leader in this, 
we didn't provide the infrastructure to help with that. The 
employers got most of the benefit. And I think of reading the 
book Perfect Madness in 2004 by Judith Warner, and rereading 
that, and just being shocked at her experience and her research 
when she moved from Washington and then went to Europe and saw 
what they had done providing universal quality childcare, 
access to transportation, and those things.
    So, those two areas, I'd really like to hear your response. 
And that's for Dr. Mason.
    Ms. Mason. Sorry. So, the No. 1 barrier to escaping poverty 
is poverty, and that includes low wages, housing insecurity, 
food insecurity, and all those things have been exacerbated, 
you know, during the pandemic. And what we have also seen 
during the pandemic is that people who were doing well before 
the pandemic are doing extremely well right now. And women--and 
people who were struggling are sinking. And so, wages have not 
kept pace with inflation and, again, workers are the ones that 
are disproportionately suffering.
    When we looked at--we just did a recent survey, speaking of 
surveys, and we found that women do want the government to play 
an active role in ensuring pay equity and passing policies that 
are fair and equitable. And we also learned, through the 
survey, is that most women in their savings and checking 
account have less than a thousand dollars in both accounts and 
15 percent of women had less than $400.
    So, when we look at inequality, we have to understand that 
this is historic, this is compounded, and it's cumulative. And 
we actually in this moment need clear structural and 
institutional changes to make sure that we can build a more 
equitable and fair economy.
    Mr. DeSaulnier. And then to followup the Perfect Madness 
question. Just what the rest of the industrialized world has 
done to help women, knowing that our issues around women of 
color are even worse.
    Ms. Mason. Yes, sir.
    Mr. DeSaulnier. I don't think Americans realize how far 
behind we are.
    Ms. Mason. We are really far behind. In fact, when we think 
about our care policies, the U.S. spends less than one percent 
of its GDP on family and care policies. We're only above 
Ireland and--excuse me--Ireland and Turkey. And if we had labor 
force participations, you know, as high as Denmark for women, 
we would see $16 billion added to the GDP.
    So, we have clear decisions to make. And this is not about, 
you know, whether it's a hoax or not. These are the facts on 
the ground, and we need to make and take this opportunity to 
correct some of the issues that we've been raising during this 
hearing.
    Mr. DeSaulnier. Thank you, Doctor. Thank you for all your 
work in this field. It's really important. And I do think the 
competitive advantage that I hear from a lot of my friends 
across the aisle in terms of global economy is one that is 
missing as well for the morality of what we need to do in this 
country and the acknowledgment of the historic and implicit 
biases and prejudice. The only way for us to fix this is to 
acknowledge that, and then pursue policies that other countries 
have that put them at a competitive advantage over us. Thank 
you.
    I yield back the balance of my time.
    Chairwoman Maloney. Vice Chair Gomez is now recognized.
    Mr. Gomez. Thank you, Madam Chair.
    I've heard almost everything in this committee. When I 
started, my colleagues on the other side of the aisle, the 
Republicans, would say that climate change didn't exist. Last 
year, the beginning of the pandemic, they were trying to make 
arguments and convince Dr. Fauci that COVID-19 wasn't as deadly 
as just the normal flu. Yes, that sounds--as preposterous as 
that sounds, that's the argument that they were making just 
last year, and now we have 530,000 Americans who have died of 
COVID-19. On an average year, anywhere from 30-to 60,000 
Americans die from the flu. But they were making that argument.
    And now, the argument we're hearing is that they're trying 
to make the argument that the gender pay gap doesn't exist, and 
if it does, it's really small, and if it does exist, it's 
because women made certain choices, certain choices. And I want 
to be very, very clear for everyone out there. Until there is a 
choice that a man can have babies and women don't have to have 
the babies, then there's no real choice at all, right. At all. 
So, this is something that they're trying to convince people is 
that these choices have led to this decision. I think it is 
completely preposterous.
    Also, women have been fighting to create equal pay and 
equal benefits and to have the same kind of status in their 
employment as men for decades. I used to work for a nurse's 
association, the United Nurses Association of California. They 
formed in 1972. And the reason why they formed is because the 
doctors had healthcare benefits and dental benefits and they 
did not. Nurses that worked for Kaiser did not have dental 
benefits back in 1972. Simple things like that that right now 
would be like, duh, but those disparities existed. And then 
even if you look at different programs out there, you see those 
disparities.
    Also, my colleagues, they talk about how they want 
flexibility. People want flexibility. Why does only flexibility 
matter when it comes to a woman and not a man? Nobody ever asks 
the man, hey, do you want flexibility so you can take time off 
to care--take care of a sick family member or a child? Nobody 
asks the man that. But it--when it comes to women, that's the 
one factor that they care most about, which is preposterous, 
right.
    Because we've seen that when we give choices, even in 
California where we expanded paid family leave, that women take 
it at a higher rate than men. I'm proud to say that men are 
starting to take it more and more and more, which is great, but 
it's still the caregiving. When somebody gets sick, it is women 
that take that burden, so you take them out of the work force. 
So, it is preposterous.
    And then when they had a chance to help millions of women 
by raising the minimum wage, they voted in masse against it. 
Against it, right. So, when my mother was working four or five 
jobs a week, it wasn't much of a choice because we were 
struggling on a hundred percent of her salary to make ends 
meet, to put food on the table and a roof over our head. So, 
this whole red herring that it's a choice is just BS, right. 
BS.
    So, I know the benefits of a strong paid family leave 
program. It can be tremendous, but how do we actually do it in 
a way that is equitable? How do we do it in a way that benefits 
everybody? That's something that I've learned here in 
California. We need to make sure that they have job protection 
below--for smaller employees. They need to have--make sure that 
they can return to their job. They have also wage replacement 
that is sufficient for a worker to take that time off. And 
then, at the same time, we want to make sure that they also 
know about the program. That's one of the things that we need 
to do.
    So, I just want to say, I want to thank all the witnesses 
here today. Equal pay for equal work is still a real thing. I 
believe everybody asked the questions on paid family leave, but 
we need to make sure that we have a robust paid family leave 
protection, we implement laws that also don't discriminate 
against individuals who took lower-paying jobs in the past. 
Like not revealing your salary data from previous employers 
makes a difference, because often women and people of color 
often get, I don't want to say screwed, but they get screwed 
when it comes to that first job out of college, right, and then 
that sets the scale for how they get raises in the future. 
There's so many different things than policy.
    I want to say thank you for attending, and this was--I'm 
glad we had this hearing, but there's--my colleagues on the 
other side of the aisle need to see the light when it comes to 
a lot of these issues, including the gender pay equity gap. 
Thank you so much.
    And I yield back to the chair.
    Chairwoman Maloney. The gentleman yields back.
    And, without objection, the following items supporting 
legislative proposals to close the gender pay gap will be 
entered into the record: A report from the TIME'S UP Foundation 
entitled, ``It's Time to Care''; a letter from the National 
Partnership for Women and Families; a statement by Professor 
Julie Suk; a report from IWPR submitted by Dr. C. Nicole Mason.
    Before we close, I'd like to offer the ranking member an 
opportunity to offer any closing remarks that he may have.
    Ranking Member Comer, you are now recognized. Mr. Comer.
    Mr. Comer. Thank you, Madam Chair.
    And, again, we want to thank all the witnesses for being 
here today. And, certainly, I think the one thing that we all 
agree on is that women should receive the same amount of pay as 
men for the same type of work and the same type of work 
product. The question is, who determines what equal pay is? Who 
determines what the same amount of work is? These are the 
questions that we've tried to ask. These are the problems with 
the bill. These are the concerns that people in the private 
sector have.
    You know, I like to point out that I was Commissioner of 
Agriculture for four years. I led an agency of probably, on 
average, 275 employees. The three highest employees in my 
agency were females. They were non-merit employees that I 
hired. I have a congressional office, what do we have, 14 
employees. My two highest paid employees are female. That's not 
because they're female; it's because they're the best 
employees.
    And I have a private sector business. My highest paid 
employee is a female, not, again, because the government told 
me to, not because that's the law, because I want the best 
employees. And I think that in the private sector, supply and 
demand usually plays out with credible companies that want to 
hire the best people.
    I think we live in a new normal because of COVID. I think 
there's going to be more work from home. I think this is a 
situation that's going to create opportunities for some. And 
I'm more than willing to work with the committee on solutions 
moving forward, but I do think that this was a productive 
hearing.
    I congratulate you all on having some great witnesses. 
We're proud of our witness too and look forward to, hopefully, 
future hearings on things like border security because we have 
a crisis at the border. Hopefully, if these schools aren't 
reopened in some of these bigger cities, that we'll have 
hearings to discuss the science of that. And I think that we 
have a lot of great opportunities moving forward, Madam Chair. 
With that, I yield back.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    I now recognize myself for a closing statement.
    We've heard some sobering testimony today from a truly 
impressive and diverse group of women. I applaud their hard 
work and continued fight for equality. We know that the pay gap 
exists. We know that it impacts women over their entire 
lifetimes, resulting in older women being the largest segment 
of poverty in our country.
    We know the coronavirus pandemic is hitting women the 
hardest, precisely because we have not addressed these systemic 
inequalities. Let's not wait until the next crisis hits to act. 
Let's get at the root of the problem now, for ourselves, for 
our mothers, our daughters, our sisters, our neighbors, and for 
those who are suffering much more than we can ever, ever 
imagine.
    I have seen so much progress for women during my lifetime 
and my tenure in Congress, but we still have a far, long road 
to go. Let this be the last equal pay day we ever have to 
commemorate, because hardworking people of all genders deserve 
to be fairly compensated for their work.
    In closing, I want to thank our panelists for their 
remarks, and I want to commend my colleagues for participating 
so strongly in this important conversation.
    With that and, without objection, all members have 5 
legislative days within which to submit additional written 
questions for the witnesses to the chair which will be 
forwarded to the witnesses for their response. I ask our 
witnesses to please respond as promptly as you can.
    This hearing is adjourned.
    [Whereupon, at 12:44 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
